<html>
<title> - STATE AND LOCAL PERSPECTIVES ON FEDERAL INFORMATION SHARING</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





      STATE AND LOCAL PERSPECTIVES ON FEDERAL INFORMATION SHARING

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                            COUNTERTERRORISM
                            AND INTELLIGENCE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 8, 2016

                               __________

                           Serial No. 114-84

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/
                                     ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-266 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
  
























                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

           SUBCOMMITTEE ON COUNTERTERRORISM AND INTELLIGENCE

                   Peter T. King, New York, Chairman
Candice S. Miller, Michigan          Brian Higgins, New York
Lou Barletta, Pennsylvania           William R. Keating, Massachusetts
John Katko, New York                 Filemon Vela, Texas
Will Hurd, Texas                     Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Mandy Bowers, Subcommittee Staff Director
                  John L. Dickhaus, Subcommittee Clerk
            Hope Goins, Minority Subcommittee Staff Director
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Subcommittee on 
  Counterterrorism and Intelligence:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Brian Higgins, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Counterterrorism and Intelligence:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5

                               Witnesses

Mr. Richard Beary, Immediate Past President, International 
  Association of Chiefs of Police:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Mr. Mike Sena, President, National Fusion Center Association:
  Oral Statement.................................................     9
  Prepared Statement.............................................    11
Mr. Cedric Alexander, National President, National Organization 
  of Black Law Enforcement Executives (NOBLE):
  Oral Statement.................................................    15
  Prepared Statement.............................................    17

 
      STATE AND LOCAL PERSPECTIVES ON FEDERAL INFORMATION SHARING

                              ----------                              


                      Thursday, September 8, 2016

             U.S. House of Representatives,
                    Committee on Homeland Security,
         Subcommittee on Counterterrorism and Intelligence,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:03 a.m., in 
Room 311, Cannon House Office Building, Hon. Peter T. King 
(Chairman of the subcommittee) presiding.
    Present: Representatives King, Katko, Hurd, Higgins, and 
Keating.
    Mr. King. Good morning. The Committee on Homeland Security, 
Subcommittee on Counterterrorism and Intelligence, will come to 
order.
    The subcommittee is meeting today to hear testimony from 3 
National law enforcement associations regarding the importance 
of information sharing and on-going challenges. I would like to 
personally welcome the Members of the subcommittee, express my 
appreciation to the witnesses who traveled here today. I really 
appreciate you taking the time to be here. Now I recognize 
myself for an opening statement.
    Nearly 19 months ago, this subcommittee held a hearing 
entitled ``Addressing the Remaining Gaps in Federal, State, and 
Local Information Sharing.'' We heard from the same impressive 
panel that is before us again today, and a lot has happened 
since then.
    During the initial hearing, the witnesses raised a number 
of important issues, including the need for cyber expertise 
within State and local law enforcement, providing fusion 
centers with greater access to FBI terrorism-related data, and 
concerns about the impact of encrypted communications platforms 
for law enforcement and counterterrorism investigations.
    A number of specific recommendations for the Department of 
Homeland Security were also raised, such as providing greater 
access to security clearances, empowering I&A field personnel, 
and expanding the homeland security information network, just 
to name a few.
    A number of the recommendations became legislative 
proposals that passed the House last year and are pending 
before the Senate. We have asked the witnesses to reconvene to 
provide an update on the status of these issues and highlight 
any additional challenges that need continued attention, 
especially in light of the administration transition next year.
    A cop or sheriff's deputy on patrol, an analyst reviewing a 
suspicious activity report, or a first responder interacting 
with the public carrying out their daily responsibilities are 
most likely going to be the first to identify a possible 
threat. In the event of a terrorist attack, they will be the 
first to respond.
    While carrying out critical security and public safety 
missions, U.S. law enforcement is facing an increased threat 
environment. Since September 11, 2001, there have been 166 
plots within the United States linked to Islamist terror 
groups, with the vast majority occurring since 2009.
    In May, FBI Director Comey stated that the Bureau has over 
800 open cases related to individuals in the United States with 
links to ISIS, and I believe he said they are in all 50 States. 
So that is 800 open cases in 50 States of U.S. individuals 
linked to ISIS.
    The terror group has called for attacks against law 
enforcement directly. In January 2015, a statement from the 
ISIS spokesman called on supporters to, ``rise up and kill 
intelligence officers, police officers, soldiers, and 
civilians.''
    In March 2016, the Caliphate Cyber Army, CCA, a cyber group 
believed to be the ISIS hacking division, released a ``kill 
list'' with names and information on 32 police officers from 
across Minnesota. During the same time period, CCA published 
personal information of 55 New Jersey Transit officers and 
encouraged lone-wolf attacks against the officers.
    Also troubling is the increase in domestic threats against 
law enforcement. In some tragic instances, these threats have 
turned into violence. The National Law Enforcement Memorial 
Fund website reports there have been 11 shooting ambush attacks 
on law enforcement in 2016 to date.
    On July 7, 2016, a gunman killed 5 police officers in 
Dallas and 7 other individuals while on duty providing security 
at a protest rally. Three police officers were killed in an 
ambush attack on Sunday, July 17, 2016, in Baton Rouge. The 
attacker had made statements supporting attacks against law 
enforcement on his social media accounts.
    In the past several months, there have been recurring open-
source media reports that suggest multiple police departments 
must respond to social media threats against law enforcement 
officials in hundreds of jurisdictions across the United 
States.
    I am concerned about this anti-law enforcement climate, and 
it adds to the dangerous nature of your jobs. Also, it involves 
going after terrorism and providing counterterrorism service.
    I want to offer my personal appreciation, admiration, and 
support to the law enforcement, intelligence analysts, and 
first responders represented by your associations for the vital 
work they carry out every day, and I look forward to your 
update.
    I want to especially thank Mr. Sena, Chief Beary, and Dr. 
Alexander for being here today. The input from your respective 
associations is critical to our understanding of what has to be 
done. You have been there, you know what it is about, and your 
testimony will be extremely valuable to us.
    Now I recognize my good friend, the Ranking Minority Member 
from New York. For you who worked in Rochester and Albany, he 
is from Buffalo, he is a little closer to the part of New York 
that you are familiar with.
    Mr. Higgins.
    [The statement of Chairman King follows:]
                  Statement of Chairman Peter T. King
                           September 8, 2016
    Nearly 19 months ago, this subcommittee held a hearing entitled 
``Addressing Remaining Gaps in Federal, State, and Local Information 
Sharing.'' We heard from the same impressive panel before us again 
today.
    During the initial hearing, the witnesses raised a number of 
important issues, including the need for cyber expertise within State 
and local law enforcement, providing fusion centers with greater access 
to FBI terrorism-related data, and concerns about the impact of 
encrypted communications platforms for law enforcement and 
counterterrorism investigations.
    A number of specific recommendations for the Department of Homeland 
Security were also raised, such as providing greater access to security 
clearances, empowering I&A field personnel, and expanding the Homeland 
Security Information Network, just to name a few. A number of the 
recommendations became legislative proposals that passed the House late 
last year and are pending before the Senate.
    We've asked the witnesses to reconvene to provide an update on the 
status of these issues and highlight any additional challenges that 
need continued attention, especially in light of the administration 
transition next year.
    A cop or sheriff's deputy on the patrol, an analyst reviewing a 
suspicious activity report, or a first responder interacting with the 
public carrying out their daily responsibilities are most likely going 
to be the first to identify a possible threat. In the event of a 
terrorist attack, they will be the first to respond.
    While carrying out critical security and public safety missions, 
U.S. law enforcement is facing an increased threat environment. Since 
September 11, 2001, there have been 166 plots within the United States 
linked to Islamist terror groups with the vast majority occurring since 
2009. In May, FBI Director Comey stated that the Bureau has over 800 
open cases related to individuals in the United States with links to 
ISIS.
    The terror group has called for attacks against law enforcement 
directly. In January 2015, a statement from the now-deceased spokesman 
for ISIS, Abu Mohammad al-Adnani, called on supporters to ``rise up and 
kill intelligence officers, police officers, soldiers, and civilians.''
    In March 2016, the Caliphate Cyber Army (CCA), a cyber group 
believed to be the ISIS hacking division, released a ``kill list'' with 
names and information on 32 police officers from across Minnesota. 
During the same time period, CCA published personal information of 55 
New Jersey Transit officers and encouraged lone-wolf attacks against 
the officers.
    Also troubling is the increase in domestic threats against law 
enforcement. In some tragic instances, these threats have turned into 
violence. The National Law Enforcement Memorial Fund website reports 
there have been 11 shooting ambush attacks on law enforcement in 2016 
to date. On July 7, 2016 a gunman killed 5 police officers in Dallas 
and 7 other individuals while on-duty providing security at a protest 
rally. Three police officers were killed in an ambush attack on Sunday, 
July 17, 2016 in Baton Rouge. The attacker had made statements 
supporting attacks against law enforcement on his social media 
accounts.
    In the last several months, there have been recurring open-source 
media reports that suggest multiple police departments have had social 
media threats against law enforcement officers in hundreds of 
jurisdictions across the United States.
    I am gravely concerned that the anti-law enforcement climate. The 
lack of support shown by many politicians and public figures is further 
enflaming tensions across the United States. Not only does this 
situation threaten law enforcement lives, I'm concerned it may impact 
their ability to operate, provide needed services, and participate in 
the National counterterrorism mission.
    I want to offer my personal appreciation, admiration, and support 
to the law enforcement, intelligence analysts, and first responders 
represented by your associations for the vital work they carry out 
every day.
    I look forward to the panel's update and would like to thank Mr. 
Sena, Chief Beary, and Dr. Alexander for being here today. The input 
from your respective associations is critical to the subcommittee's 
understanding of the threat and progress made to improve the amount and 
quality of information shared between Federal, State, and local law 
enforcement.

    Mr. Higgins. Thank you, Mr. Chairman.
    I would like to thank the Chairman for holding this hearing 
and for his leadership on this issue. It is a follow-up to the 
hearing first held in the 114th Congress. I would also like to 
thank the witnesses for traveling here to be with us again 
today.
    Today, only a few days from the 15th anniversary of the 
attacks on September 11, 2001, we know now, unfortunately, that 
information sharing is an integral part of our Nation's 
security. The idea and the practice of information sharing 
between Federal, State, and local law enforcement officials has 
been firmly ingrained in our homeland security policies since 
9/11.
    Our lessons learned have pushed the Federal Government to 
develop many initiatives expanding efforts at information 
sharing with State and local partners. Today, we have many 
examples of successful partnerships, such as the fusion centers 
and the National Joint Terrorism Task Force.
    However, our work in this area is not complete. The primary 
intelligence mission remains collecting information and 
providing accurate analysis in a timely manner. The challenge 
becomes balancing the environment where competitive information 
sharing thrives while eliminating unnecessary duplication. That 
has and remains the challenge for law enforcement officials and 
its partners.
    As Members of Congress, we have an important role today. 
When we met here in February 2015, we were recovering from a 
historic Government shutdown. Now, 1\1/2\ years later, we are 
days away from another Government shutdown with Department of 
Homeland Security funding and ultimately funding for our State 
and locals looming in the balance. So while I applaud the open 
and candid dialog, funding uncertainty trickles down and 
impacts all of the issues we have gathered here to discuss.
    Moreover, the recent and on-going attacks against law 
enforcement highlight the fact that the true value of 
information sharing will never be realized if State and local 
law enforcement officials cannot respond and protect their own 
communities. At our last meeting, I encouraged intelligence and 
law enforcement officers to integrate themselves into 
jurisdictions and communities that they are assigned and in 
order to know and understand geographical and cultural 
sensitivities. Today, I would again encourage the same thing.
    So while today's hearing topics are not new, they present 
issues that we cannot afford to ignore. This type of open 
dialog is beneficial to all parties involved and helps to 
inform the decisions that we make as a collective body.
    Again, I welcome you back here before this committee, and I 
look forward to your testimony.
    I yield back.
    [The statement of Ranking Member Higgins follows:]
               Statement of Ranking Member Brian Higgins
                           September 8, 2016
    Today, only a few days from the fifteenth anniversary of the 
attacks on September 11, 2001, we now know, unfortunately, that 
information sharing is an integral part of our Nation's security.
    The idea and the practice of information sharing between Federal, 
State, and local law enforcement have been firmly engrained in our 
homeland security policies since 9/11. Our lessons learned have pushed 
the Federal Government to develop many initiatives expanding efforts at 
information sharing with State and local partners.
    Today, we have many examples of successful partnerships, such as 
Fusion Centers and the National Joint Terrorism Task Force; however, 
our work in this area is not complete. The primary intelligence mission 
remains collecting information and providing accurate analyses in a 
timely manner.
    The challenge becomes balancing an environment where competitive 
information sharing thrives while eliminating unnecessary duplication. 
That has and remains the challenge for law enforcement officials and 
its partners.
    As Members of Congress we have an important role today. When we met 
here in February 2015, we were recovering from a historical Government 
shutdown. Now, one-and-a-half years later we are days away from another 
Government shutdown with DHS funding and ultimately the funding of our 
State and locals looming in the balance.
    So while I applaud an open and candid dialogue, funding uncertainty 
trickles down and impacts all of the issues we have gathered to discuss 
today.
    More, the recent and on-going attacks against law enforcement 
highlight the fact that the true value of information sharing will 
never be realized if State and local law enforcement cannot respond and 
protect their own communities.
    At our last meeting I encouraged intelligence and law enforcement 
officers to integrate themselves into the jurisdictions and communities 
they are assigned, in order to know and understand geographical and 
cultural sensitivities. Today I would again encourage the same thing.
    So while today's hearing topics are not new, they present issues we 
cannot afford to ignore. This type of open dialogue is beneficial to 
all parties involved and helps to inform the decisions that we make as 
a collective body.

    Mr. King. Thank you. The Ranking Member yields back.
    I want to welcome our witnesses. Just to remind Mr. Katko, 
if he has a statement to make for the record, he can submit it. 
Other Members may submit statements for the record as well.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                           September 8, 2016
    Information sharing is critical to our Nation's security. On 
Sunday, we will commemorate the fifteenth year since the September 11 
attacks of 2001. I cannot help but to reflect on how successful we have 
been when it comes to piecing the puzzle pieces together to create 
better information sharing within the intelligence community and the 
law enforcement community.
    While the puzzle is still evolving, the final picture is much 
clearer today than it was 15 years ago. Officials have become better at 
not only gathering information, but also analyzing these pieces of 
diverse and sometimes inconsistent information to create a single 
coherent picture. That picture is then shared with other officials, all 
of whom are working to keep our Nation safe.
    The progress that has been made in both Congress and the Executive 
branch have strategically addressed systematic problems caused by both 
the failure to analyze and the failure to share information between law 
enforcement officials and first responders. Some of those failures have 
been remedied by simply requiring agencies to talk to each other and 
their colleagues within State, local, and Tribal governments.
    However, this has not been an easy process. As Members of Congress, 
we have pushed to eliminate cultures, which promoted stove-piped 
information and prevented external sharing. Our goal has become 
shifting away from a need-to-know culture to a need-to-share 
environment. Our insistence must be shown by not only pushing for 
better information sharing, but also by providing the tools and funding 
necessary to achieve a high and concise level of sharing.
    Congress and the Federal Government must do more to assure that 
State and local fusion centers can fully assist in the homeland 
security mission. These centers remain our most useful piece of 
information-sharing infrastructure.
    While DHS and FBI are helping fusion centers to build analytical 
and operational capabilities, they must also help these centers measure 
and increase their homeland security value.
    However, as we convene here today, the funding of our Federal 
Government, including the Department of Homeland Security, is unknown 
beyond the end of this month. The end of fiscal year 2016 will be here 
on September 30. Unless Congress acts, our law enforcement agencies 
will lose their ability to fund many of the operations that we need to 
ensure that our country is safe.
    So this hearing cannot be held in a vacuum. The needs of our State 
and local law enforcement groups cannot be balanced on the divides of 
political party lines. Continuous breaks in funding and the anxiety 
created from ``not knowing'' until hours before or after a deadline are 
not appropriate ways to run our Government and protect our country.
    So it is irresponsible for us to charge our witnesses today, all of 
whom are partners within DHS, to continue fighting the good fight if we 
are not even willing to provide continuous funding.
    While I look forward to revisiting the challenges that our State, 
local, and Tribal law enforcements groups face in sharing and receiving 
information with the Federal Government, I also look forward to hearing 
an honest assessment from each of our witnesses about the information-
sharing challenges that continue to persist in this uncertain budgetary 
environment.

    Mr. Katko. Thank you.
    Mr. King. OK.
    Our first witness today will be Chief Beary. Chief Richard 
Beary is the immediate past president of the International 
Association of Chiefs of Police and served as the president 
during the first subcommittee hearing in February 2015. He 
served for 30 years as a law enforcement officer in Florida, 
including as chief of police for the city of Lake Mary. In 
2007, he was appointed chief of police for the University of 
Central Florida.
    Throughout his years of service, he has twice been awarded 
the Medal of Valor for performance undertaken at great personal 
hazard. Obviously, he had the Orlando tragedy occurred within 
his jurisdiction, and look forward to anything you have to say 
about that.
    But, again, thank you for your testimony when you were here 
in the past, look forward to your testimony again this morning. 
Thank you for your service. You are recognized.

     STATEMENT OF RICHARD BEARY, IMMEDIATE PAST PRESIDENT, 
         INTERNATIONAL ASSOCIATION OF CHIEFS OF POLICE

    Chief Beary. Good morning. Thank you, Chairman King, and 
Members of the subcommittee for inviting me to testify back in 
front of you again. As you know, I was here on February 26, 
2015, and I sat before many of you in this room, and we talked 
about some very important issues. I appreciate you reconvening 
so that we can follow up on those issues.
    Over a year ago, I spoke about issues such as going dark, 
the encryption that the Chairman spoke about, which is only 
going worse, the integral role of the National Fusion Center 
Network, which is critical to how we do business, and how 
things have advanced since 9/11 in information sharing, because 
we have had some incredible gains and we can never forget that.
    While there is no doubt that our fusion centers remain 
absolutely essential and law enforcement still faces great 
challenges, even with legal authority on gaining access to 
electronic communication pursuant to a court order, I would 
like to focus on a few other issues today. Those issues are 
terrorist attacks and information sharing around incidents like 
the Pulse nightclub shooting, cyber threats, and Federal 
funding.
    During my career, 39 years, I have watched the threats to 
our communities evolve. While we are still dealing with the 
problems of violent crime, drugs, prostitution, smuggling, 
trafficking, and gangs, we now face additional challenges. 
Those challenges include violent extremism, terrorism, cyber 
threats, and highly organized criminals with access to 
specialized equipment to aid them in their mission to harm 
others and devastate our communities.
    June 12, 2016, 2:03 a.m., it is a day I will not forget. It 
was in the early hours of June 12 that Omar Mateen--which 
normally I don't identify the shooters, but I will in this 
case--killed 49 people and wounded countless others inside the 
Pulse nightclub in downtown Orlando. Forty-nine people lost 
their lives and 53 others were wounded. Quite frankly, if it 
wasn't for incredible medical care that was close by, those 
numbers would have been even higher.
    Members of my agency were first responders to this horrific 
scene, and our victim advocates assisted family members at 3 
local hospitals.
    Now, 3 months later, we continue to provide counseling 
services to victims and their families as they work to restore 
some type of normalcy to their lives while the FBI and the 
Joint Terrorism Task Force continue the criminal investigation.
    This Pulse incident highlights how one heavily-armed 
individual can inflict numerous casualties with weapons 
purchased legally here in the United States.
    As law enforcement continues to deal with radicalized 
people and groups, there is growing concern about refugees from 
war-torn countries coming to our country. Thus far, we have not 
been informed how they will be vetted or where they will be 
located. Our need to know is not about targeting or 
trafficking, but more in line with assistance during 
assimilation and protecting these individuals from people in 
communities with ill intent.
    Another issue of significance is cyber threats. The cyber 
threat confronting the United States has never been greater. 
The cyber threat is real, it is here, and it is now. It seems 
as though we read or hear about cyber crime and cyber attacks 
against Government agencies, businesses, and critical 
infrastructure every single week in the media. However, 
cybersecurity is not just a National-level challenge. It 
affects State, local, Tribal, and territorial law enforcement 
agencies every day.
    These agencies encounter issues ranging from cyber-enabled 
crime committed against local individuals and businesses to 
forensic cyber investigations to protecting against and 
responding to cyber crime, cyber attack, and intrusions. Police 
departments themselves have become the targets of ransomware 
attacks which threatens our operation and the security of our 
information systems and data.
    Please keep in mind that nearly three-quarters of the 
18,000 law enforcement agencies in this country are small with 
fewer than 25 sworn officers. This means many of the Nation's 
law enforcement agencies do not have robust IT systems, and 
protecting their systems from intrusions is a challenge. 
Therefore, we cannot and must not overlook the importance of 
fully engaging smaller agencies and non-urban agencies in 
cybersecurity exercises, training, and threats.
    I would also recommend that the FBI consider adding cyber 
crime reporting to the Uniform Crime Reporting system. During 
my 39 years in Government experience, it has shown me that for 
something to become a priority, we have to you count it first, 
and if we don't count it, it is not important to us.
    It should come as no surprise to Members of this committee 
that Federal funding is essential to our efforts, from high-
intensity drug trafficking to the fusion centers and all of the 
resources that connect the dots so that law enforcement can be 
effective.
    On behalf of the IACP and our more than 27,000 members in 
132 countries, Chairman, thank you for allowing me to be here 
again, and I look forward to answering your questions.
    [The prepared statement of Chief Beary follows:]
                  Prepared Statement of Richard Beary
                           September 8, 2016
    Good morning Chairman King and Members of the subcommittee: Thank 
you for inviting me to testify today on State and local perspectives on 
Federal information sharing. I am currently the chief of police for the 
University of Central Florida, the largest university in the State. I 
am also the immediate past president of the International Association 
of Chiefs of Police (IACP).
    On February 26, 2015, I sat before Members of this subcommittee and 
testified on this very same topic. I would like to thank this committee 
and subcommittee for reconvening a hearing on this very important issue 
and for the support it has demonstrated over the years for the law 
enforcement field and our communities.
    Over a year ago, I spoke about issues such as ``going dark,'' the 
integral role of the National Network of Fusion Centers, and how things 
had advanced since 9/11. While there is no doubt that our fusion 
centers remain absolutely essential, and law enforcement still faces 
great challenges, even with the legal authority, to gaining access to 
electronic communications information pursuant to a court order, I 
would like to focus on a few other issues today. Those issues are 
terrorist attacks and information sharing around incidents like the 
Pulse nightclub shooting, cyber threats, and Federal funding.
    During my career, I have watched the threats to our communities 
evolve. While we are still dealing with the problems of violent crime, 
drugs, prostitution, smuggling/trafficking, and gangs, we now face 
additional challenges. Those challenges include violent extremism, 
terrorism, cyber threats, and highly-organized criminals with access to 
specialized equipment to aid them in their mission to harm others and 
devastate our communities.
    June 12, 2016. I will never forget this day. It was in the early 
hours of June 12 that Omar Mateen killed 49 people and wounded 
countless others inside Pulse nightclub in Orlando, Florida.
    Members of my agency were first responders to this horrific scene, 
and our victim advocates assisted family members at 3 local hospitals. 
Now, 3 months later, we continue to provide counseling services to 
victims and their families as they work to restore some type of 
normalcy to their lives while the FBI and our Joint Terrorism Task 
Force continues the criminal investigation. This incident highlights 
how one heavily-armed individual can inflict numerous casualties with 
weapons purchased legally here in the United States.
    As law enforcement continues to deal with radicalized people and 
groups, there is growing concern about refugees from war-torn countries 
coming to our country. Thus far, we have not been informed how they 
will be vetted or where they will be located. Our need to know is not 
about targeting or tracking, but more in line with assistance during 
assimilation and protecting them from individuals with ill intent.
    Another issue of significance is cyber threats. The cyber threat 
confronting the United States has never been greater. The cyber threat 
is real, and it is here and now.
    It seems like we read or hear about cyber crime and cyber attacks 
against Government agencies, businesses, and critical infrastructure 
every week in the media. However, cybersecurity is not just a National-
level challenge--it affects State, local, Tribal, and territorial law 
enforcement agencies every day. These agencies encounter issues ranging 
from cyber-enabled crime committed against local individuals and 
businesses, to forensic cyber investigations, to protecting against and 
responding to cyber crime, cyber attacks, and intrusions.
    Police departments themselves have become the targets of ransomware 
attacks, which threatens our operations and the security of our 
information systems and data.
    Nearly three-quarters of the 18,000 law enforcement agencies 
throughout the United States have fewer than 25 sworn officers; nearly 
half have fewer than 10 sworn officers. This means that many of our 
Nation's law enforcement agencies do not have robust IT capabilities 
and protecting their systems from intrusions is a challenge.
    Therefore, we cannot, and must not overlook the importance of fully 
engaging smaller agencies and agencies in non-urban areas in 
cybersecurity threat assessments as well as including them in cyber 
attack exercises and training. Fully engaging all law enforcement 
agencies in this increasingly growing threat is the only way we will be 
able to prepare for and prevent future attacks that threaten the 
security of our agencies and the United States.
    I would also recommend that the FBI consider adding cyber crime 
reporting to the Uniform Crime Reporting system. My 39 years of 
Government experience has shown me that something can only become a 
priority for action when we begin to officially count it.
    This should come as no surprise to members of this subcommittee, 
but Federal funding to support Federal, State, local, and Tribal agency 
efforts is essential. This includes Federal funding to support fusion 
centers, crime analysis centers, Regional Information Sharing System 
(RISS) Centers, and High-Intensity Drug Trafficking Areas (HIDTA). 
These have proven to be very effective platforms for integrating 
Federal, State, local, and Tribal law enforcement criminal information 
and intelligence, and they need to be maintained in order to insure the 
protection of the homeland. As these platforms continue to mature, 
their immense value in helping investigative agencies to ``connect the 
dots'' has been demonstrated. As part of this maturity process, de-
confliction of both targets and events between these platforms is 
becoming an increasingly important area that needs attention and 
support from Congress moving forward.
    On behalf of the IACP and our more than 27,000 members in 132 
countries, thank you again for the opportunity to appear before you 
today. I would be happy to answer any questions you may have.

    Mr. King. Chief Beary, thank you for your testimony. Again, 
thank you for being here once more and for your service over 
the years.
    Our next witness is Mike Sena, who is the director of 
Northern California Regional Intelligence Center, the fusion 
center for the San Francisco Bay area. He also currently serves 
as the president of the National Fusion Center Association, 
representing 77 State and local fusion centers that comprise 
the National Network of Fusion Centers.
    Mr. Sena also has testified before this committee on 
numerous occasions and continues to be a great resource to the 
committee.
    We thank you for that, and we appreciate you being here 
today, and now you are recognized. You have been here enough. I 
don't have to tell you how to do it. You are the pro.

   STATEMENT OF MIKE SENA, PRESIDENT, NATIONAL FUSION CENTER 
                          ASSOCIATION

    Mr. Sena. Thank you. Thank you, Mr. Chairman, and Ranking 
Member Higgins. I would like to thank you for inviting me to 
testify again on this important topic.
    I am proud to represent the professionals across the 
National Network of Fusion Centers. Since we met in February 
2015, we have seen good information-sharing progress. But we 
have also been reminded that gaps still exist. At the end of 
the day, it is about meeting the needs and expectations of the 
American people and also that we keep them safe while 
respecting their rights.
    Fusion centers are at the forefront of removing barriers, 
developing better pathways, and maintaining relationships that 
help analysis and sharing happen faster. The role of fusion 
centers in the aftermath of attacks in San Bernardino, Orlando, 
Baton Rouge, and other places are clear examples of that. 
Fusion centers are routinely deconflicting investigative cases 
today thanks to support of DHS, the PM-ISE, and our partners at 
the risk watch centers, and HIDTAs across the country.
    That means that we have better visibility into active 
investigations around the country, and it means our officers 
are safer. We are working to standardize the process for 
exchanging requests for information, or RFIs, among fusion 
centers and our partners through HSIN exchange. This will help 
the flow of information and help track the responses.
    In the wake of high-profile attacks in recent months, 
suspicious activity reports, SARs, forwarded to fusion centers 
rose sharply. Some people sent information directly to the FBI. 
Most people called 9-1-1 or their local law enforcement 
agencies. Thanks to the ever-growing network of liaison 
officers, those reports are routinely forwarded to fusion 
centers. Our analysts work with DHS and FBI partners to vet 
those reports, provide local context around the information, 
and submit them to the FBI's eGuardian system as appropriate.
    Since the beginning of fiscal year 2016, through the end of 
July, fusion centers have received thousands of SARs from the 
public. We saw a massive uptick in November and December after 
the Paris and San Bernardino attacks. So far for fiscal year 
2016, more than 100 of those SARs have contributed to existing 
FBI investigations or resulted in the initiation of a new 
investigation, and many of those were connected to individuals 
on the terror watch list. That is a clear indication of the 
enhanced reporting, analysis, and sharing that happens through 
fusion centers.
    You can also find encouraging evidence of the progress in 
the newly published 2016 annual report from the program manager 
for the Information Sharing Environment, or PM-ISE. If Members 
of this committee have not yet reviewed that report, I strongly 
encourage you to do so. It is available on-line at ISE.gov, and 
I would like to submit it for the record.*
---------------------------------------------------------------------------
    * The information referred to has been retained in committee files 
and may also be available at https://www.ise.gov/resources/document-
library.
---------------------------------------------------------------------------
    Mr. Sena. In my written statement, I lay out in more detail 
the challenges we are facing, but I want to highlight some of 
them here.
    We have consistently called for more TS/SCI clearances for 
appropriate fusion center personnel. Without those clearances, 
the types of information our people are able to factor into 
their analysis can be inadequate and sensitive information that 
should be shared is not shared.
    We have strong concerns about the impact of Federal FOIA 
interpretations on the legal ability of State and local law 
enforcement to share our information and intelligence with our 
Federal partners. We need better standards around law 
enforcement sensitive information, or LES information.
    Currently, there is no clear definition of LES information 
and no penalties for unauthorized release of that data. We have 
to share most information at the FOUO-LES level so it gets to 
the people who need it, which can still reveal sensitive 
information about on-going investigations, jeopardize cases and 
the lives of law enforcement personnel, yet there is no way to 
enforce or penalize violations.
    We also believe that the FBI should explore the inclusion 
of fusion centers in its threat review prioritization process 
to ensure more complete understanding of the threats facing our 
Nation. Right now, several fusion centers are unable to begin 
to assess criminal justice information databases through CJIS.
    We are also unable to gain access to the Financial Crimes 
Enforcement Network, FinCEN, and that challenge also exists 
with our other partners at risk centers and HIDTAs. I am very 
concerned that some of our Federally-funded programs, whose 
mission clearly includes providing investigative support, 
cannot get access to data that is fundamental to good 
analytical work. It is a clear obstacle to information sharing 
and analysis, and we need to address it.
    Finally, we are working with the FBI on an ``enhanced 
engagement initiative'' to ensure the FBI continues to improve 
its sharing of relevant counterterrorism information with 
fusion centers. It will also improve coordination among fusion 
centers to address the growing terrorism threat. We are working 
closely with our partners at DHS, PM-ISE, and the Criminal 
Intelligence Coordinating Council on this project.
    I want to congratulate and thank this committee for its 
productive legislation during the 114th Congress. You have 
moved several pieces of legislation that would make a positive 
difference to fusion centers and the American public. We 
strongly encourage the Senate to consider those bills.
    Next month, we will hold our fusion center training 
conference in Alexandria, Virginia. I would like to invite 
Members and staff of this committee to attend the conference to 
see up close the challenges we are addressing and the level of 
corroboration that has become routine.
    Mr. Chairman, thank you for inviting me to testify today, 
and I look forward to your questions.
    [The prepared statement of Mr. Sena follows:]
                    Prepared Statement of Mike Sena
                           September 8, 2016
    Mr. Chairman, thank you for inviting me to testify on this 
important topic. My name is Mike Sena and I am testifying today in my 
capacity as president of the National Fusion Center Association (NFCA). 
I am currently the director of the Northern California High Intensity 
Drug Trafficking Area (HIDTA) and Northern California Regional 
Intelligence Center (NCRIC), one of the 78 fusion centers in the 
National Network of Fusion Centers (National Network). Fusion centers 
bring together law enforcement, public safety, fire service, emergency 
response, public health, protection of critical infrastructure and key 
resources (CIKR), and private-sector security personnel to understand 
local implications of National intelligence, and add State and local 
information and context to Federal intelligence, thus enabling local, 
State, and Federal officials to better protect our communities.
    Since we last met in February of 2015, we have seen progress in the 
analysis and sharing of information related to threats to the homeland. 
We have also seen demonstrations of gaps that still exist. As I stated 
in my testimony last year, our public safety, law enforcement, and 
intelligence communities have made dramatic progress since September 
11, 2001. This progress has not come without its roadblocks. As we 
continue to work through those challenges with help from this 
committee, we believe that we are on the right path and making steady 
improvement. At the end of the day, it's about meeting the needs and 
expectations of the American people that we keep them safe while 
respecting their rights.
    At a high level, I believe we should be working toward the 
following four priorities to improve our ability to do that:
    1. Strong Federal support for fusion centers through SHSGP and UASI 
        grant funding, and accountability behind the Law Enforcement 
        Terrorism Prevention (LETP) requirement in current law.
    2. Strong engagement by DHS, FBI, and other Federal partners 
        directly with fusion centers including the forward deployment 
        of intelligence officers and analysts at fusion centers.
    3. Strong training and network development between fusion centers, 
        police chiefs, sheriffs, fire chiefs, rank and file, emergency 
        management and other public safety partners at all levels of 
        government and across all geographies to ensure tips, leads, 
        suspicious activity, and criminal intelligence data are flowing 
        efficiently for analysis and sharing.
    4. Strong connectivity and direct engagement between Federal, 
        State, and local investigative and analytical entities with 
        responsibility for cybersecurity.
    Over the past year, we have seen the important role the National 
Network of Fusion Centers plays in supporting lead investigative 
agencies in the aftermath of horrific tragedies--both terror attacks 
and criminal activity--in Orlando, San Bernardino, Baton Rouge, and 
elsewhere. Immediately after the San Bernardino terrorist attack, 
analysts at the Joint Regional Intelligence Center (JRIC) were 
developing intelligence on suspects and sharing it directly with the 
San Bernardino Police Department, San Bernardino Sheriffs Office, and 
the FBI.
    An alert sheriff's deputy who had recently received training at the 
JRIC called the fusion center to report that an individual matching the 
description of the person wanted in connection with providing weapons 
to the shooters was about to check out of an area hospital. The fusion 
center immediately passed the information to the task force that was 
about to launch a manhunt for the individual, enabling them to call it 
off before it even started. It may seem simple, but the fast and 
efficient flow of tips, leads, and intelligence products is challenging 
in practice. Fusion centers are at the forefront of removing barriers, 
developing better pathways, and maintaining relationships that help 
information analysis and sharing happen faster. The JRIC's role after 
the San Bernardino attack is one clear example of that.
    We have found after many of the recent high-profile terror attacks 
over the past year (San Bernardino, Paris, Orlando) that reporting of 
suspicious activity by public safety personnel and by citizens rose 
sharply immediately after the events. Some people send information 
directly to the FBI. Others don't know who to call, and naturally look 
to their local police agency or call 9-1-1. Thanks to an ever-growing 
network of liaison officers, those reports are routinely forwarded to 
fusion centers. Analysts vet those reports, provide local context 
around the information reported, and share information directly with 
the FBI via eGuardian.
    I am still often asked whether fusion centers duplicate the FBI's 
JTTFs. This committee knows the difference, but many people are still 
not fully aware that JTTFs are Federally-run investigative bodies that 
support the FBI's unique mission to investigate terrorism threats in 
this country. Fusion centers play a much different role; they're not 
only information-sharing hubs in States and metropolitan regions. 
Fusion centers are where we train a cadre of terrorism liaison officers 
(TLOs), including police officers, firefighters, EMS workers, and our 
private-sector partners on indicators and warnings of terrorism. Fusion 
centers have the ability to catalogue critical infrastructure in each 
State and region and analyze incoming suspicious activity reports 
(SARs) against the National threat picture and against what we know 
about our critical infrastructure. We have the ability to rapidly share 
information and intelligence among the entire National Network and with 
the FBI. But often that SAR information has no nexus to terrorism. It's 
about drug dealing or gang activity or firearms trafficking or mortgage 
fraud. So the all-crimes approach mentioned above gives us the ability 
to analyze that information and funnel it to the right place. And we 
know that, sometimes, information that at first blush appears to be 
criminal in nature actually is linked to terrorist activity.
    In the wake of serious ISIL-inspired threats to law enforcement and 
other public safety officers around the country, the NFCA worked 
closely with the FBI to prepare a ``Duty to Warn'' memorandum to fusion 
center directors and FBI field office executive management to advise 
them of certain protocols and assistance for identifying and warning 
individuals that are the targets of threats. We also worked with the 
FBI to produce additional guidance on deconfliction efforts between 
State and Federal partners on the Duty to Warn documents.
    An essential part of continued improvement is the Federal support 
provided to fusion centers. That Federal support includes assignment of 
intelligence officers and analysts, technical assistance, training and 
exercises, linkage to key information systems, grant funding, and 
security clearances. For example, the FBI has assigned 94 personnel 
either full-time or part-time to 63 out the 78 fusion centers across 
the country. DHS has assigned 103 personnel to the fusion centers, 
including intelligence officers, regional directors, and reports 
officers.
    The support of the Program Manager for the Information Sharing 
Environment (PM-ISE) and his office has been critical to some of the 
progress we have made since the last hearing. From continuing to 
coordinate the development of standards for sharing information across 
sectors, to enabling a single sign-on capability for personnel in 
fusion centers and other field-based information sharing entities to 
access multiple criminal intelligence databases, to paving the way for 
coordinated deconfliction of law enforcement operational events across 
multiple systems, the PM-ISE and his staff have been essential partners 
of ours. Another PM-ISE supported project is currently under way with 
the Northeast Regional Intelligence Group (including all of the fusion 
centers in the Northeast region) that will result in deeper cooperation 
and coordination among information-sharing entities and a wider set of 
public safety partners in the region. The ISE annual report for 2016 
was just published, and I strongly encourage Members of this committee 
to visit the ISE website and review that report for more background on 
the progress we are all making together.
    These resources add critical value to the resources committed by 
State and local governments to make the National Network a foundation 
of homeland security information sharing. Over the past several years, 
the State and local share of budget resources allocated to fusion 
centers has grown substantially. State and local governments provided 
well over half of all funding for fusion centers in fiscal year 2015. 
In addition to concrete personnel and financial resources, the 
dedication of time and deliberate effort to continually deepen 
engagement with our Federal partners has been critical. One recent 
example of this was past month when personnel from 14 fusion centers 
participated in a week-long forum at FBI headquarters to exchange 
information regarding best practices in analytical collaboration and 
information sharing between the FBI, other Federal partners, and the 
National Network of Fusion Centers.
                     addressing on-going challenges
    Since fusion centers are separately owned and operated by State and 
local entities, there is variation among the centers in terms of budget 
and capabilities. That variation in capabilities has an impact on the 
expectations of our local, county, State, and Federal public safety 
partners and customers. To address this, the NFCA has initiated an 
effort to formalize a standard process for collection of analytical 
tradecraft best practices and operational success stories. We are also 
working to establish a single virtual location for these best practices 
so that anyone who is part of the National Network of Fusion Centers--
from new directors to analysts--has a ``one-stop shop'' for resources 
to help improve their capabilities and understand what is happening 
across the National Network. We are creating new opportunities for 
advanced training for fusion center analysts, including collaborating 
with our Federal partners on advanced analyst training. There is 
currently no broadly-accepted method for exchanging requests for 
information (RFIs) across the National Network of Fusion Centers and 
among our law enforcement partners at all levels. So we are working to 
standardize that process for exchanging RFIs through HSIN. Next month 
we will hold our annual conference in Alexandria, Virginia and will 
have representatives from nearly all fusion centers, all of our Federal 
partners, and personnel from police departments, sheriffs offices, and 
other public safety entities around the country. We encourage Members 
and staff from this committee to attend that conference to see up-close 
the challenges we are addressing and the level of collaboration that 
has become routine.
    We are continuing to address obstacles to progress in information 
sharing and analytical capabilities. For example, we have consistently 
called for more TS/SCI clearances for appropriate fusion center 
personnel. Without those clearances, the types of information our 
people are able to factor into their analysis can be inadequate. In 
some cases, sensitive information that should be shared by Federal 
partners is not shared. We also believe that the FBI should explore the 
inclusion of fusion centers in its threat review and prioritization 
(TRP) process to ensure a more complete understanding of the threats 
facing our Nation. In addition, we have voiced strong concerns about 
the chilling impact of Freedom of Information Act (FOIA) 
interpretations on the willingness and legal ability of State and local 
law enforcement entities to share certain State and locally-derived 
information and intelligence with our Federal partners. Also, we need 
to create standards related to ``law enforcement sensitive'' (LES) 
information. Currently there is no official designation of LES as a 
classification category and no penalties for unauthorized release of 
LES information. If we want to share certain types of threat 
information with a broader public safety audience for their situational 
awareness and security resource decision making, it cannot be at the 
``Secret'' level. It has to be FOUO/LES, which can still reveal 
sensitive information about on-going investigations and jeopardize 
those cases. Yet there is no way to enforce or penalize violations.
    Finally, we have been working hard over the past several months to 
address the current inability of several fusion centers to obtain 
access to certain Federal criminal justice information databases 
through FBI CJIS. In my mind it is unacceptable that some State and 
local entities whose mission clearly includes providing support to 
investigative agencies on criminal threats cannot get access to data 
sets that are fundamental to good analytical work. It is a clear 
obstacle to information sharing and analysis up and down the chain, it 
is a glaring gap, and it should be remedied as soon as possible.
    We are working with the FBI on an ``enhanced engagement 
initiative'' to ensure the FBI continues to improve its sharing of 
relevant counterterrorism information with fusion centers, while also 
enhancing the contribution of information and analysis from fusion 
centers in a coordinated and efficient manner to address the growing 
terrorism threat. We are working closely with our partners at DHS, the 
Program Manager for the Information Sharing Environment (PM-ISE), and 
the Criminal Intelligence Coordinating Council (CICC) on this project.
    To facilitate situational awareness and share information across 
agencies about cyber threats, the NFCA Cyber Intelligence Network 
(CIN), which is a relatively new network of fusion center cyber 
analysts, tries to ascertain whether the intelligence developed in 
various States may be part of a broader trend. The CIN is comprised of 
over 250 Federal, State, and local law enforcement members who focus on 
cyber crimes. These members come together and act as a Virtual Fusion 
Center utilizing a cloud service provided by the Homeland Security 
Information Network (HSIN) to share real-time cyber threat intelligence 
in support of an incident, event, or mission. This level of cyber 
threat information sharing was impossible only a few years ago, yet now 
is becoming routine. Testimony by Lt. Col. Dan Cooney of the New York 
State Police before this committee back in May laid out several 
examples of how fusion centers are part of this effort. In May of 2015, 
the ``Cyber Integration for Fusion Centers'' Appendix was added to the 
Baseline Capabilities for State and Major Urban Area Fusion Centers 
guidance. Clearly, good progress has been made. But we are nowhere near 
where we need to be on cyber analysis and information sharing across 
all public safety jurisdictions. It should be a priority in the next 
Presidential administration and in the next Congress to focus on this 
challenge.
    We appreciate the work that this committee has done during the 
114th Congress to ensure that fusion centers have the necessary 
resources to carry out their missions. The House of Representatives has 
approved multiple bills that originated in this committee to strengthen 
information-sharing practices and more clearly define roles and 
responsibilities. We strongly encourage the Senate to consider those 
bills and act as soon as possible.
    Mr. Chairman, on behalf of the National Fusion Center Association, 
thank you for inviting me to testify today. I commend you for your 
focus on this topic. It should continue to be a high priority for this 
committee and for all of Congress--especially in this dynamic threat 
environment. We look forward to continuing to work closely with the 
committee.

    Mr. King. Thank you, Mr. Sena. I will certainly pass on 
your comments regarding the legislation to Chairman McCaul and 
Ranking Member Thompson. This is a bipartisan committee, and, 
again, they will certainly appreciate, as I do, the comments 
you made. I know the Ranking Member does, and also Chairman 
Katko, who is Chairman of the subcommittee as well.
    Our next witness is a true expert in law enforcement, Dr. 
Cedric Alexander. He is the national president for the National 
Organization of Black Law Enforcement Executives. He also 
serves as chief of police for DeKalb County.
    Previously, Dr. Alexander was the Federal security director 
for the Transportation Security Administration at Dallas/Fort 
Worth International Airport. He also served--now we have a New 
York issue--as deputy commissioner of the New York State 
Division of Criminal Justice Services, chief of police in the 
Rochester Police Department, one of the outstanding departments 
in the State, and held several leadership roles at the 
University of Rochester, Department of Psychiatry in New York.
    Dr. Alexander began his law enforcement career in 1977 and 
also served with the Miami-Dade Police Department and was a law 
enforcement police officer in Florida for 15 years.
    Dr. Alexander, thank you for being here again. Thank you 
for your career of service. We now recognize you for your 
testimony.

  STATEMENT OF CEDRIC ALEXANDER, NATIONAL PRESIDENT, NATIONAL 
    ORGANIZATION OF BLACK LAW ENFORCEMENT EXECUTIVES (NOBLE)

    Chief Alexander. Thank you very much as well, Chairman.
    Chairman King, Ranking Members Higgins and Thompson, and 
Members of the subcommittee, I bring you greetings on behalf of 
the great State of Georgia and law enforcement throughout the 
State of Georgia and the community in which I live as well.
    I speak to you, of course, from 40 years of law enforcement 
experience and have been privileged to hold a number of high 
positions both in Federal, State, county, and local government 
over the course of my career.
    As we review the past year-and-a-half, attacks such as 
those in San Bernardino, Orlando, and Dallas provide lenses by 
which we as a Nation, and in particular Federal, State, and 
local law enforcement, must continue efforts to improve 
information sharing, understand and confront new and emerging 
threats, and ask ourselves what more needs to be done.
    Let me talk a little bit about the improvements that we 
have seen over the last year from where I sit, sir.
    Improvements in information sharing among law enforcement 
agencies at the Federal, State, and local level have improved 
since February 2015. Efforts to declassify intelligence has 
helped Federal authorities share pertinent information more 
readily, which assists State and local law enforcement to 
prepare and respond to emerging threats.
    Colocating the Georgia information sharing and analysis 
center with FBI staff encourages more efficient sharing and 
fusion of information and intelligence. As noted in February 
2015, this fusion center and other local partnerships, task 
forces, and meetings with State and Federal agencies facilitate 
information flow but are still relationship-driven and systems 
remain decentralized.
    Cooperation and information sharing between Federal and 
State law enforcement, as well as other private-sector 
partners, are supported through several strategic plans and 
directives, which are the ``2014 to 2017 National Strategy for 
the National Network of Fusion Centers,'' and seek to connect 
with the intelligence community leveraging the strengths and 
resources of all partners.
    Executive Order 13691, Promoting Private Sector 
Cybersecurity Information Sharing, by President Barack Obama on 
February 13, 2015, lays the framework for partnerships and 
systems development for law enforcement, Government entities, 
and the private sector to collaborate in the security of the 
Nation's cyber systems. Further support includes the FBI Law 
Enforcement Enterprise Portal, LEEP, which centralizes many 
tools, resources, and training.
    Now, new and emerging threats. Even though strides have 
been made, information-sharing and counterterrorism efforts are 
still hampered by systems that are largely decentralized and 
not standardized, unfunded mandates and budgetary restraints, 
personnel gaps, and classification of information and 
intelligence. Furthermore, cyber attacks, exploitation of 
social media platforms, and legal issues challenge law 
enforcement capabilities.
    Decentralized. Albeit there are many tools, public and 
private sector, whereby law enforcement may collect, analyze, 
develop, and share information and intelligence, but they 
remain relatively decentralized. Fusion centers across the 
country are working hard to bridge this gap, but the 
intelligence community mission still requires accessing several 
websites, software, and databases.
    Furthermore, there is so much data and information 
available that investigators oftentimes find it difficult to 
identify that which is relevant and actionable intelligence. 
One intelligence professional discussed how many of the 
intelligence bulletins entail several pages with limited new 
and actionable intelligence and stated that these need to be 
condensed to critical information to avoid being overlooked.
    Many agencies have turned to varying systems offered from 
the private sector, which have great potential, yet do not 
interface with one another. These challenges slow State and 
local law enforcement identifying and responding to threats.
    Funding and personnel. I am going to move through this very 
quickly due to time.
    Counterterrorism and intelligence capability require 
funding and personnel to keep pace with current and emerging 
threats. While the strategic plan is to develop, encourage, and 
use public-private partnerships to counter threats and share 
information, the systems still require funding.
    Data, information, and intelligence in many cases require 
security clearances. Although numerous departments across the 
country are able to assign officers to task forces, such as the 
FBI Joint Terrorism Task Force, others do not have the 
personnel. Even with such assignments, briefings provided 
contain Classified information that are limited upon how it may 
be used.
    I am going to go right to what more needs to be done, if I 
could, Chairman, with the time that I have left.
    Mr. King. Sure. Absolutely.
    Chief Alexander. But I want to talk here about systems. 
Intelligence, information, analytical tools, databases, and 
other resources still require better centralization and 
simplification. Although improvements have been realized in 
collating intelligence, more is needed. My recommendation 
remains that intelligence sources, tools, and resources 
continue to merge and be centralized providing for a one-stop 
site and dashboard where the intelligence community can access, 
investigate, analyze, share, and produce actionable 
intelligence.
    Simplification and reducing data overload is key. 
Standardizing intelligence systems to make them more 
interoperable can increase the speed of gathering, analyzing, 
and sharing data while simplifying the process of operators. 
Human intelligence will remain no matter how robust our systems 
develop, and these continue to need enhanced access to 
protected and Classified information.
    Moving forward, we must find new avenues to increase the 
availability of protected intelligence to those of law 
enforcement and the speed by which it is provided. 
Declassification of materials, security clearances, and task 
force liaisons play a part, but developing an access or 
clearance level that would allow local departments better flow 
of information is needed.
    Training and educating State and local law enforcement to 
operate in cyber and high technology fields has increased, 
including Web-based suites of courses through the FBI. These 
efforts should continue, increase, and involve a security 
clearance program that supports local access to protected 
material.
    In summary, sir, there is no shortage of terrorist attacks 
we have seen in the last year-and-a-half to drive home the 
message that Federal, State, and local law enforcement must 
effectively and efficiently share information and partner with 
the private sector to protect our Nation. We are also 
experiencing a time in our Nation where a real or perceived 
divide between law enforcement and the community exists. Better 
information flow and cooperation is also necessary for our 
communities.
    Thank you for the opportunity to be here. I am sorry if I 
went over my time, sir. But if you have any questions, I will 
be more than glad to try to entertain them for you.
    [The prepared statement of Chief Alexander follows:]
                 Prepared Statement of Cedric Alexander
                           September 8, 2016
    Chairman King, Ranking Members Higgins and Thompson, and Members of 
the subcommittee, I bring you greetings on behalf of law enforcement 
communities across America.
                              introduction
    My name is Dr. Cedric Alexander, member of President Barack Obama's 
Task Force on 21st Century Policing, and deputy chief operating officer 
for public safety, DeKalb County, GA. It is an honor to be here today 
to participate as a witness in the House's hearing on ``State and Local 
Perspectives on Federal Information Sharing.'' I want to acknowledge 
and thank Chairman King for holding this hearing and the invitation to 
participate.
    I speak to you from the perspective of a person who has over 39 
years of law enforcement experience and who has held positions at the 
highest levels of Federal, State, county, and city governments. In 
addition, I hold a Ph.D. in clinical psychology.
    As we review the past year-and-a-half, attacks, such as those in 
San Bernardino, Orlando, and Dallas provide lenses by which we as a 
Nation and, in particular, Federal, State, and local law enforcement, 
must continue efforts to improve information sharing, understand and 
confront new and emerging threats, and ask ourselves, ``What more needs 
to be done?''
                        improvements experienced
    Improvements in information sharing among law enforcement agencies 
at the Federal, State, and local level have improved since February 
2015. Efforts to declassify intelligence have helped Federal 
authorities share pertinent information more readily, which assists 
State and local law enforcement prepare and respond to emerging 
threats. Co-locating the Georgia Information Sharing and Analysis 
Center (GISAC) with FBI staff, encourages more efficient sharing and 
fusion of information and intelligence. As noted in February, this 
fusion center and other local partnerships, task forces, and meetings 
with State and Federal agencies facilitate information flow, but are 
still relationship-driven and systems remain decentralized.
    Cooperation and information sharing between Federal, State, and 
local law enforcement, as well as with private-sector partners, are 
supported through several strategic plans and directives. The 2014-2017 
National Strategy for the National Network of Fusion Centers, seeks to 
connect the intelligence community, leveraging the strengths and 
resources of all partners.\1\ Executive Order 13691--Promoting Private 
Sector Cybersecurity Information Sharing, by President Barack Obama on 
February 13, 2015, lays the framework for partnerships and system 
development for law enforcement, Government entities, and the private 
sector to collaborate in the security of the Nation's cyber systems.\2\ 
Further support includes the FBI's Law Enforcement Enterprise Portal 
(LEEP), which centralizes many tools, resources, and training.\3\
---------------------------------------------------------------------------
    \1\ National Strategy for the National Network of Fusion Centers 
2014-2017. Retrieved from https://nfcusa.org/html/
NationalStrategyfortheNationalNetworkofFusionCenters.pdf.
    \2\ Obama, Barack, Presidential Executive Order 13691, February 20, 
2015 Vol. 80, No. 34, Part III. Promoting Economic Competitiveness 
While Safeguarding Privacy, Civil Rights, and Civil Liberties in 
Domestic Use of Unmanned Aircraft Systems.
    \3\ Johnson, Aisha, PhD, FBI Training Academy (November 2015). FBI 
Investigative Technology Training: Preparing Officers for Cyber Crimes. 
The Police Chief, pp 30-32.
---------------------------------------------------------------------------
                        new and emerging threats
    Even though strides have been made, information sharing and 
counterterrorism efforts are still hampered by systems that are largely 
decentralized and not standardized, unfunded mandates and budgetary 
constraints, personnel gaps, and classification of information and 
intelligence. Furthermore, cyber attacks, exploitation of social media 
platforms, and legal issues challenge law enforcement capabilities.
    Decentralized.--Albeit, there are many tools, public and private 
sector, whereby, law enforcement may collect, analyze, develop, and 
share information and intelligence, but they remain relatively 
decentralized. Fusion centers are working to bridge this gap, but the 
intelligence community mission still requires accessing several 
websites, software, and databases. Furthermore, there is so much data 
and information available that investigators find it difficult to 
identify that which is relevant and actionable intelligence. One 
intelligence professional discussed how many of the intelligence 
bulletins entail several pages, with limited new and actionable 
intelligence, and stated that these need to condensed to critical 
information, to avoid being overlooked.\4\ Many agencies have turned to 
varying systems offered from the private sector, which have great 
potential, yet, do not interface with one another. These challenges 
slow State and local law enforcement from identifying and responding to 
threats.
---------------------------------------------------------------------------
    \4\ Donahue, Lt. T.P. Intelligence Led Police Unit, DeKalb County 
Police Department (personal conversation) August 26, 2016.
---------------------------------------------------------------------------
    Funding and personnel.--Counterterrorism and intelligence 
capabilities require funding and personnel to keep pace with current 
and emerging threats. While the strategic plan is to develop, 
encourage, and use public-private partnerships to counter threats and 
share information, the systems require funding. In many cases, agencies 
must use open market software and applications due to budget 
constraints. As an example, I discussed in February 2015 that funding 
for the Georgia Terrorism Intelligence Project (GTIP) was reduced to 
$90,000, down from a $2.5 million DHS grant in 2007 and these cuts 
remain today.
    Law enforcement across the country have seen reductions in staffing 
and the ability to hire and retain quality and experienced personnel. 
These staffing deficiencies threaten our ability to respond to 
traditional crime problems, as well as, those of terrorism and cyber 
space.
    Classified information.--Data, information, and intelligence, in 
many cases, require security clearances. Although, numerous departments 
across the country are able to assign officers to task forces, such as, 
the FBI Joint Terrorism Task Force (JTTF), others do not have the 
personnel. Even with such assignments, briefings provided contain 
Classified information and are limited upon how it may be used. 
Furthering the problem is cost and timeliness of the clearance process. 
Understanding that this information must be protected, the process 
limits the flow of information and delays action.
    Cyber attacks, Social media, and Legal issues.--Cyberspace threats, 
social media exploitation, and navigating the legal issues are ever-
increasing concerns. Cyber attacks against law enforcement agencies 
have drastically increased in 2015 and are higher than those against 
other Government organizations.\5\ Social media is used to recruit 
terrorists and other criminal actors, plan attacks, and muster large 
crowds to protest events. These activities are difficult for law 
enforcement to identify, track, and prepare a timely response, as the 
speed of cyber technology and ease of maneuverability is generally 
outpacing our efforts. Further exasperating the issue, are legal 
hurdles and privacy concerns. Striking the balance between public 
safety and privacy is a daunting task. ``Going dark'' which denotes the 
reduced ability of law enforcement to address cyber challenges, crimes, 
and terrorism due to technical and legal barriers, continues to be a 
problem.\6\ Yet, these barriers are those that protect our freedoms and 
privacy. There are no easy solutions to these threats and challenges, 
but we must continue to work collectively to solve them.
---------------------------------------------------------------------------
    \5\ Emerson, James J. and Kelepecz, Betty J. (February 2016) Cyber 
Attacks: The Contemporary Terrorist Threat. The Police Chief, pp. 34-
37.
    \6\ Guy, Sarah (January 2016) IACP Advocacy's Efforts to Address 
Going Dark and the Prevention of Terrorism. The Police Chief, pp. 10.
---------------------------------------------------------------------------
   what more needs to be done: moving forward to recommendations to 
address the gaps in accessing quality intelligence shared among local, 
              state, and federal law enforcement agencies
    Moving forward, still more must be done to improve information 
sharing and counterterrorism efforts within Federal, State, and Local 
law enforcement. My recommendations include and build upon those made 
in February 2015.
    Systems.--Intelligence information, analytical tools, databases, 
and other resources, still require better centralization and 
simplification. Although, improvements have been realized in collating 
intelligence, more is needed. My recommendation remains that 
intelligence sources, tools and resources continue to merge and be 
centralized, providing for a one-stop site and dashboard, where the 
intelligence community can access, investigate, analyze, share, and 
produce actionable intelligence. Simplification and reducing data-
overload is key. Standardizing intelligence systems to make them more 
interoperable can increase the speed of gathering, analyzing, and 
sharing data, while simplifying the process for operators.
    Protected/Classified Materials.--Human intelligence will remain no 
matter how robust our systems develop, and these continue to need 
enhanced access to protected and Classified information. Moving 
forward, we still must find avenues to increase the availability of 
protected intelligence to those in law enforcement and the speed by 
which it is provided. Declassification of materials, security 
clearances, and task force liaisons play a part, but developing an 
access or clearance level that will allow local departments better flow 
of information is needed.
    Training and educating State and local law enforcement to operate 
in cyber and high-technology fields has increased, including web-based 
suite of courses through the FBI.\7\ These efforts should continue, 
increase, and involve a security clearance program that supports local 
access to protected materials.
---------------------------------------------------------------------------
    \7\ Johnson, Aisha, PhD, FBI Training Academy (November 2015). FBI 
Investigative Technology Training: Preparing Officers for Cyber Crimes. 
The Police Chief, pp. 30-32.
---------------------------------------------------------------------------
    Funding.--Lastly, funding these and other initiatives remains a 
need across local, State, and Federal law enforcement. Detecting, 
deterring, mitigating, and responding to threats requires the 
personnel, resources, and systems to be successful and funding is 
necessary to ensure we are ready.
                                summary
    There is no shortage of terrorist attacks in the last year-and-a-
half to drive home the message that Federal, State, and local law 
enforcement must effectively and efficiently share information and 
partner with the private sector to protect our Nation. We are also 
experiencing a time in our Nation where a real or perceived divide 
between law enforcement and the community exists. Better information 
flow and cooperation is also necessary with our communities.
    So we ask today, ``Where do we go from here?'' The answer remains 
to continue on our course of improving information sharing and 
counterterrorism efforts through centralized and simplified systems, 
improved classification and security protocols, increased training, and 
focusing funding toward these objectives. I thank the subcommittee for 
the opportunity to testify and I would be happy to answer any 
questions.
    examples of sources of law enforcement intelligence information
    HSIN.--Homeland Security Information Network (DHS managed National 
        information)
    TRIPwire.--Technical Resource for Incident Prevention (Bomb-
        related)
    Infragard.--Information from private sector and FBI for protecting 
        critical infrastructure
    RISSNET.--Regional Information Sharing System (for law enforcement)
    LEO.--Law Enforcement Online, which is an FBI program administered 
        by FBI/DOJ
     examples of software used for intelligence and investigations
    LexisNexis.--A locate and research tool for persons
    Accurint.--A locate and research tool for persons
    TLO.--A locate and research tool for persons
    Clear.--A locate and research tool for persons
    SnapTrends.--A social media analytics and intelligence tool
    Analysts' Notebook.--A tool that collates, analyzes and visualizes 
        data
    Pen-Link.--A tool for collection, storage, and analysis of 
        telephonic and IP-based communications
    Intelligence RMS.--An intelligence records management system 
        database
    examples of technology used for intelligence and investigations
    Computers.--Desktops, laptops
    Accessories.--Printers, scanners, fax machines
    Networked.--Servers, plotters, laminators, color printers
    Presentation.--Conference communications, display screens
                          examples of training
    Criminal Intelligence Analysis
    Financial Manipulation Analysis
    Software and Analytics Training
    Homeland Security and Terrorism Analysis
    Writing and Presenting Intelligence Reports

    Mr. King. Thank you, Dr. Alexander. I wouldn't have even 
thought of interrupting you. My wife is from Georgia, and she 
wouldn't have spoken to me again if I had interrupted someone 
from Georgia. So thank you.
    Let me ask the question, and I don't ask this from the 
vantage point of Monday morning quarterbacking, but 
specifically to Chief Beary and generally to the entire panel, 
using Orlando as an example, I understand the FBI closed out 
the investigation initially. Whether they should have or not, 
that is a judgment call. I am not going to question their 
judgment. The reality is, though, that the FBI would not have 
the personnel to continue to monitor every individual that a 
case is opened on in the country.
    Do you believe that the JTTFs, though, should stay more in 
contact with local police so they could at least keep some 
general surveillance or monitoring of someone that a case was 
opened on, or at least an investigation was begun on, not 
enough to continue to keep the case going, but also there is 
still some smoke--there may not be fire, but there may be 
smoke--so that local police could still continue to monitor to 
the extent they thought advisory?
    Also, is there sufficient cooperation between the JTTFs? 
Because you could have a large State with large populations, 
several JTTFs, and you could have suspects or individuals, 
obviously, crossing JTTF lines. Are the local police informed 
of those individuals?
    So I will start with Chief Beary as far as Orlando, and 
then open it up to the other two witnesses.
    Chief Beary.
    Chief Beary. Thank you, Chairman King.
    The answer to your question is, first, I have to say this, 
and I didn't put it in my testimony. I still haven't gotten my 
head around the fact that my hometown is the mass murder 
capital of the United States. I cannot believe that as I sit 
here in front of you in Washington, DC, today that my hometown 
has that dubious honor. We hope that nobody else has to 
experience that.
    Our commitment is every one of our patrol cars now has this 
sticker on it, because 49 people died, and the American public 
has already forgotten the number of people that died.
    Now I will answer your question. I had to say that, because 
it is important for our community.
    Mr. King. Absolutely.
    Chief Beary. The FBI officers, I can tell you in Orlando, 
where I am a member of the JTTF and I have personnel assigned, 
does a great job of sharing information. They keep us in the 
loop. We have meetings; we are invited to their weekly 
meetings. So we have great intelligence sharing.
    I can't answer if that information was shared at the other 
office, because that investigation of the shooter in Orlando 
was done by the Miami office. I don't know if that was shared 
with those local police agencies or not. So it would not being 
appropriate for me to speculate.
    However, I would say this. Hopefully, if it didn't happen, 
certainly going forward, I would hope that if the FBI closes 
out a couple of investigations, they would at least make those 
locals aware of that.
    I think the other missing gap here is when people start 
buying weapons and they are on that list, we certainly should 
know that that is happening. I know there are a whole bunch of 
issues when it comes to guns, but if you have somebody that has 
been investigated as a possible terrorist and they are buying 
weapons, somebody needs to tell the cops, and then we will take 
it from there.
    So thank you, and I look forward to other questions.
    Mr. King. Thank you, Chief.
    Mr. Sena.
    Mr. Sena. You know, as far as the JTTF relationship with 
not just the fusion centers, but the local and State law 
enforcement, I think that it has expanded to the point where we 
have got really good relationships in many parts of the 
country. Other parts, it is not as strong. As Dr. Alexander 
said, oftentimes it is based on relationships, relationships 
that people have in the local community with the FBI, with the 
State law enforcement, with the local law enforcement, and the 
fusion center. All of that has to work together closely.
    In my area, twice a week we send out those suspicious 
activity reports where, if we are able to, the details to 
13,000 law enforcement officers of who we are looking at, and 
that way they have context of what we are doing. They know what 
the subjects may be. But there are also privacy concerns that 
we also have to look at as well, because oftentimes with 
suspicious activity, people have not committed a crime. We also 
have to be cognizant of making sure that people understand 
that.
    But at least giving them the ability to have visibility is 
key. We are doing across the country a lot better at that. Can 
we do better across the entire network? Yes. It is mainly, we 
have got to move away from personality-based operations to a 
standard function that this is the way we do business.
    Unfortunately, it has taken us 15 years to get to this 
point. I actually think there needs to be policies and there 
needs to be legislation that encourages that level of 
cooperation and exchange of information.
    But on the backside of that, we also have to have 
responsibility that people protect the data and not disseminate 
it inappropriately, which can cause a lot of damage to the 
ability to investigate, collect intelligence, and also the 
ability for law enforcement officers to do their job.
    Mr. King. Other police officials have mentioned that to me 
about legislation. Any thoughts you have on legislation, 
because that could be tricky. But on the other hand, again, I 
don't know if that gets us into telling the FBI director how to 
do his job or not. But if you could give us some ideas on 
proposed legislation on that too and will greatly encourage 
that type of cooperation.
    Mr. Sena. Dr. Alexander, you want to take that first and I 
can comment?
    Chief Alexander. No, no, you can go ahead.
    Mr. Sena. OK.
    As far as the legislation encouraging, throughout the 
country people receive grant funding or funding is delivered 
based on expectations that you will do some type of activity. 
Every time that we throw a hook out there that in order to 
receive your funding levels you have to accomplish X, Y, Z, 
that is the mechanism, whether it be suspicious activity 
reporting, whether it be a willingness to share data, whether 
it be a process to so many clearances or so much access 
permissions, something along those lines that if you want to 
receive your Federal funding or your grants or whatever it may 
be, that there is a requirement that you have a duty to share 
information, that you have a duty as a fusion center to get 
that information out to those people in the field, and that 
people in the field have an expectation that they should ask 
their centers, that they should ask the FBI for data, and that 
in return, when they ask for it, they should get it.
    Mr. King. Thank you.
    Dr. Alexander.
    Chief Alexander. There is one piece here that I did not get 
a chance to share in my opening statements. If I could, sir, I 
would like to read it.
    Mr. King. Absolutely.
    Chief Alexander. It is under funding and personnel. 
Counterterrorism and intelligence capabilities require funding 
and personnel to keep pace with current and emerging threats. 
While the strategic plan is to develop, encourage, and use 
public-private partnerships to counter threats and share 
information, the systems require funding. I will give you an 
example.
    As we discussed in February 2015, the funding for the 
Georgia Terrorism Intelligence Project, GTIP, which we refer to 
it as, was reduced to $90,000, down from a $2.5 million DHS 
grant in 2007, and these cuts still remain today.
    One of the biggest challenges I think my two colleagues 
here would agree with me on, Chairman, is that with all the 
emerging threats certainly that we have seen over the last 
couple of years, with the threats that we know that are still 
relevant that are out there today, with the amount of 
information that we are receiving and yet probably missing as 
well, it is going to be critical, I believe, to the 
infrastructure and public safety of our communities, 
particularly all our communities, but certainly to local 
communities in which myself, like Chief Beary, serve.
    The more information that we are able to ascertain that is 
relevant to what may be pertinent to our communities, 
understanding that there are different levels of secrecy, but 
for us at very much of a local level, it becomes incumbent to 
have as much information as we have so that we can at least try 
to forecast, predict, prepare ourselves for what may be 
potentially be the next threat. We have to have funding to do 
that.
    Even though we struggle with this whole decentralized piece 
of information sharing, I think that is a challenge in and of 
itself. But JTTF and the FBI and others really have done a 
tremendous job in supporting local law enforcement. But at the 
end of the day, sir, it certainly does come down to funding, 
and it comes down to having the ability to keep up with all the 
latest technology that is continually evolving each and every 
day.
    Because one thing we know about the bad guys, whether they 
are domestic or foreign, many of them have the same 
technological advantages sometimes that we do. They look at 
some of the same information that we do, and they prepare 
oftentimes as we do.
    So for us, it becomes critically important to have as much 
access to intelligence information, and that is guided, quite 
frankly, through being able to be funded so that we can work on 
some of these challenges that we know are constantly emerging 
in front of us, sir.
    Mr. King. Thank you, Dr. Alexander.
    Ranking Member.
    Mr. Higgins. Thank you, Mr. Chairman.
    Thank you, gentlemen, for the work that you do. The fusion 
centers, the Joint Terrorism Task Force, it is always a 
question of resources, and it can never be enough. The more 
people that need to be investigated, the more people you need 
to fund relative to our law enforcement activities.
    When you get into these kinds of issues, in 
counterterrorism intelligence you never get credit for what 
didn't happen. The whole emphasis is about preventing things 
from happening. So you do great work, and they do great work 
throughout our communities to keep everybody safe.
    But I just can't help but conclude our big problem is guns. 
You look at Orlando, you had an individual for a time was on 
the FBI watch list, 49 people dead, 53 people wounded, one 
shooter, one shooter. Semiautomatic rifle, semiautomatic 
pistol, legally purchased.
    Newtown, Connecticut, 20 kids dead between the ages of 6 
and 7, first grade. Most of those kids had multiple wounds. Six 
adults. Those adults were throwing themselves in front of the 
kids to try to protect them. The shooter also shot and killed 
his mother.
    The kid was thought to have very significant mental health 
issues. Sixteen mass shootings, 8 of the gunmen involved in 
those had criminal histories and documented mental health 
problems that did not prevent them from buying a gun.
    Why would any law-abiding citizen that invokes a 
Constitutional right to bear arms as a responsible citizen, and 
the vast majority of gun owners in this country I believe are, 
why would they defend someone that has terrorist activity in 
their history to purchase a gun legally?
    I understand the Second Amendment, but the Framers of the 
Constitution could never have anticipated the kind of hell that 
was inflicted on innocent people in Orlando, in Newtown, in 
these other places where we have had gun violence.
    I would ask you to comment. I mean, you represent, at least 
two of you, you represent chiefs of police. We are allowing 
terrorists, people with mental health issues, they outgun the 
very police officers that take an oath to protect us.
    Now, I heard one response in the so-called defense of the 
Second Amendment when the Newtown shooting occurred, that we 
should allow more guns in the school. That would have created a 
mass shootout.
    In terms of our law enforcement officials, again, they take 
an oath to protect all of us. Don't we at least have an 
obligation to them to ensure that they at least have a fighting 
chance in a situation where there is going to be a 
confrontation with some lunatic that legally buys a gun in this 
country? That is anti-American. That is anti-American.
    I would ask you to comment.
    Chief Beary. Thank you, Congressman.
    On behalf of the International Association of Chiefs of 
Police, we have taken a very strong position on this through 
the years. We absolutely support expanded background checks. We 
support closing the gun show loophole.
    Just to put this in perspective, my wife recently just got 
married, and she had to get a new driver's license. To get a 
new driver's license, she had to show her birth certificate, 
she had to get two utility bills and a lease to get a driver's 
license. But somebody can get out of prison, go to a gun show, 
show no identification at all, and buy as many weapons as they 
want. Something is wrong with that, OK? Then it is the men and 
women that we represent that have to deal with that threat, OK?
    So our association supports closing those loopholes and 
background checks.
    The other thing that I have to tell you as a law 
enforcement officer, that we are seeing about the incredible 
increases about violent crime, we are seeing more weapons than 
we have ever seen before, and the shootouts are going to 
continue. The only reason the homicide rate is not double what 
it is right now in this country is because of incredible 
medical care. If not, the homicide rate would be comparable to 
the 1970's, which people like to talk about.
    That is a fact that I am willing to stand on right here in 
front of you or anybody else. We have to do a better job.
    Mr. Higgins. Well said.
    Chief Alexander. Yes, sir. Certainly, I do wholeheartedly 
agree with my colleague, Chief Beary.
    But let me say this a little. Over a year ago, I had two 
police officers respond to a call for service. Upon arrival to 
the scene, there were two bad guys that opened fire on them 
with long rifles. They engaged in a shootout that lasted 
probably for about 3 or 4 minutes, and that is a very long 
time. They were armed at that time, our officers, were armed 
with .40 caliber handguns. One of the subjects had an AK-47, 
another one with an extended magazine on a handgun.
    Both officers were hit. One was severely hit in the thigh, 
the other one was hit in the lower leg. But they found each 
other and they stayed in the fight until backup officers got 
there.
    I can't tell you how angry that makes me, how scary that 
was for all of us, because we almost lost an officer who almost 
bled out and who almost lost his leg. But thanks to medical 
science and Grady Hospital there, which is our trauma center 
there in Atlanta, they were able to save both of those 
officers.
    This is a real serious issue when we start talking about 
gun control. I think most of us as Americans certainly do 
support the Second Amendment. I do. It is a Constitutional 
right that we all have. But this whole idea of our right is 
somewhat going amok in many cases, because oftentimes, when I 
hear people talk about it, they usually talk out of both sides 
of their mouth. On one hand, they want gun control, but yet on 
the other hand they don't. So I don't know which is which. I 
understand the strong lobbying of the NRA and the impact that 
it has on this country as it relates to gun control.
    But this is a real serious problem for us. Quite frankly, 
if we go back and look at some of the prior shootings across 
this country, people who had no history of any involvement in 
any type of terrorist group, who just came out of nowhere, 
whether they were a college student or whomever they may have 
been, there were no signs, because the accessibility, quite 
frankly, of weapons is so easy in this country.
    The greatest majority of people, you are right, Chairman, 
that own firearms in this country are law-abiding citizens. But 
we also know that at any given moment, any law-abiding citizen, 
because of stressors that may be imposed on his or her life, or 
life takes a different course and people lose themselves, and 
if they have accessibility to a weapon they could use it in a 
deadly way.
    But it is not those who rightfully own these weapons that I 
am concerned about, it is the millions of weapons that are 
stolen from cars and homes every year that go reported, and 
oftentimes not reported, and find themselves on the streets of 
American cities.
    You can take a city like Chicago, Illinois, for an example, 
and I think is a perfect example. There are a number of guns 
that they take off the street on a daily basis, but yet the 
number of killings that take place is just unimaginable. But 
yet, we as a Nation, quite frankly, still have not done 
anything, I don't think, wholly, to really address this whole 
gun issue.
    So we are going to have to decide which way do we want 
this. We want to exercise our Second Amendment rights, but at 
the same time too there are going to have to be some real hard 
decisions and legislation made. Maybe it will be under the next 
Presidential administration. I don't know. But we keep talking 
about it and talking about it and talking about it.
    When I think about Connecticut and I think about those 
small babies that lost their lives, I mean, it almost brings 
tears to my eyes, even to this moment, because it is sad and it 
is shameful. But it goes on every day in this country still. It 
just doesn't happen in one place in a schoolhouse. It happens 
across communities, across cities, and across the country.
    So I don't know the answer to that question, and I think we 
all can talk about it ad nauseam, but the reality of it is that 
as a Nation we are going to have to find a way to even hold 
those that are responsible gun owners, and that is me and a 
whole bunch of us.
    But we have got to make sure that we keep the possessions 
of those weapons somewhere that is secure, that is locked, 
whether in our homes, in our cars, or whatever, and try to 
minimize the likelihood of those weapons being stolen.
    Because those are the weapons that are hurting people, 
those that are being stolen, not from the guy who lives in my 
neighborhood or your neighborhood who goes down to the local 
gun shop and shows his identification and purchases a weapon 
either for protection or for recreation. It is those weapons 
that get away from us oftentimes and get into the wrong hands.
    Mr. Sena. The comments I would like to add from the fusion 
center perspective.
    Four years ago, when I started talking with the Terrorist 
Screening Center about the issue of known or suspected 
terrorist encounters that we were not being notified about, 
that was one of those encounters, groups. Reason being, they 
said, was the attorneys from TSC and the folks representing 
them.
    They are fantastic partners, but they said, we can't share 
this with you, because the Second Amendment right that they can 
buy these, even if we know they have a belief from the law 
enforcement perspective that this person is a terrorist. I was 
just shocked, just dumbfounded.
    Not having that information from a local officer or State 
officer that a person that we believe is engaged in criminal 
activity and under investigation and not know about it, it puts 
us in a bad position. Especially when we are talking about long 
guns. A long gun to a handgun is not a fair fight. Most law 
enforcement officers in America have handguns. They can't 
defend themselves against that.
    Mr. Higgins. Mr. Chairman, just in closing, I would just 
say, first, thank you for your leadership. Thank you for your 
professionalism, your perspective on this issue. To me, it has 
massive street credibility.
    We give fast track authority for trade deals; we should 
give law enforcement professionals and leaders fast track 
authority in developing common-sense, common-sense gun control, 
gun safety measures, because unless and until we do that, we 
are going to be back here year after year, and we are just 
going to be talking about the most recent mass shooting that 
occurred. Unfortunately, the further away you get from these 
incidents, these victims are forgotten.
    So I will yield back.
    Mr. King. The gentleman yields back.
    The gentleman from New York, Chairman Katko.
    Mr. Katko. Thank you, Mr. Chairman.
    Thank you for your comments, gentlemen.
    For 20 years I was a Federal prosecutor, and I had the 
great pleasure of working with State and local law enforcement 
on a regular basis in El Paso and in Puerto Rico and in up-
State New York. I was always struck by the importance of having 
the State and local components on the Federal task forces.
    Maybe the FBI didn't always agree with me, but I really 
felt that they were critically important. They brought a level 
of investigatory expertise that you don't always have. I mean, 
sometimes the local guys can just find that informant you need 
on the street or whatever to make your gang case or make your 
organized crime case. It is critically important.
    So I have a fundamental understanding of task forces and 
the good and bad of them.
    It is troubling to me to hear you say, Mr. Sena, that we 
still have this TS, Top Secret-think security clearance issue. 
So I wonder if you can expound on that for a minute.
    Because it is frustrating to me, if you have State and 
local law enforcement that are willing to augment these task 
forces and are willing to put up bodies in this time of great 
budgetary constraints and in a time of a great pressure on the 
Federal law enforcement through the expansion of these ISIS 
investigations tenfold, maybe multi-times more than that, why 
has it taken so long, in your opinion, to get these clearances 
done? It makes no sense to me.
    Mr. Sena. It has been painful. One manager in my office 
can't actually sit with the team that he manages for the past 8 
months, because he is waiting for a clearance.
    It makes it difficult for us to operate. Some of it is 
related to the violation into the systems for background checks 
that was done a few years back and their backlog. But it is a 
slow process.
    The other complication of this is, DHS recently has gone to 
getting TS clearances for folks, but the SCI caveat has to be 
done by an organization such as the FBI to give up their 
information. So what we are running into, and this is the 
bizarre circumstance, we started out with getting secret 
clearances for our folks, and then they have to go through a 
whole new process to get a TS clearance from the FBI or SCI 
clearance.
    It is a convoluted process. I know General Taylor over at 
DHS I&A has been very proactive in moving this forward to 
actually allow us for the first time for DHS to get TS 
clearances. But my clearance is through the FBI, and it was, 
back when it was done, a much smoother process. But we are 
still this time lag. If a person can't do their job for 8 
months to a year and they are assigned to a task force, you are 
half a man down, basically.
    Mr. Katko. No, I understand that. We had the same problem, 
just my interns, in OCDETF cases, they couldn't even get access 
to the OCDETF information until halfway through the summer 
because they had to get a security clearances for a student 
intern. It is so frustrating.
    Mr. Sena. Absolutely.
    Mr. Katko. Now, we understand the problem here. We did pass 
some legislation to hopefully address this. But what would you 
gentlemen suggest that we can do to get this going? I mean, is 
it just a matter of dollars and cents to get more bodies at FBI 
doing these background checks so we get them done in a more 
expedited manner or what is it?
    Chief Alexander. Well, I think that is a good question. I 
think that is something that the FBI wants just as much as we 
do, but the protocols that are set in place are set in place, 
so that may require some new changes in rules and policies and 
so forth.
    But the criticalness of it is in the here and now, because 
here is what we know about the threats that are out there and 
the threats that are emerging. These are local threats, sir, as 
you have indicated, that are actually coming from our 
communities. Because the threats, whether it is recruitment of 
young people in communities across this country, they are 
coming from the streets of America.
    So if kids or young people or we have threats that have 
come into this country through other avenues, they are on the 
streets of this country. If they are going to be noticed, 
found, investigated, first someone knows. Someone is seeing 
something or hearing something that is very unusual. It starts 
from the local communities. It doesn't start up here. It starts 
from local communities.
    Mr. Katko. That is part of what we tried to address with 
the countering violent extremism, getting people into the 
communities to help intervene before they----
    Chief Alexander. Absolutely. Right. But to Mr. Sena's 
point, we have to have authorities and those in the law 
enforcement community who have immediate access to information 
and be able to share that information as quickly as we can, 
because so much is happening so fast.
    Mr. Katko. Right. That goes to my second question, really, 
accessing the databases, which is really frustrating to me to 
hear that. How the heck have you guys, if you get your security 
clearances, why are you having a hard time accessing these 
databases?
    I know it is so frustrating for you, you probably want to 
scream. It is maddening to me. If the information is there and 
the guys with boots on the ground out on the street have those 
security clearances, why don't they have access to these 
databases?
    Mr. Sena. Here is one of the hard issues that we have. So 
we have programs like the risk program that have been around 
for over 40 years for deconfliction services, watch center 
service, HIDTA program since 1988, fusion centers, a lot of 
them after 
9/11. They are programs.
    So when we go to get access to some services, they go: 
Well, you are a program, you are not an agency, and because of 
that, we cannot--you know, there is nothing written in CFRs, in 
the Code of Federal Regulations that defines our programs as 
having access to that type of data.
    So they will say: Well, that one person in your 
organization, because they come from that police department or 
that agency, can have access, but the rest of you, if he is not 
there, you are on your own. That is what we are seeing in some 
locations.
    Mr. Katko. That is despite the fact that they all have the 
same security clearance?
    Mr. Sena. Absolutely.
    Mr. Katko. That is madness to me. That is absolute madness.
    Mr. Sena. Yes, sir.
    Mr. Katko. If you trust them to have the security 
clearance, you trust them to have access to information. Am I 
correct?
    Mr. Sena. That is correct.
    Mr. Katko. So how can we fix that?
    Mr. Sena. The only way I can see now, because we have tried 
through policy, we have tried through discussion with various 
organizations about how do we make this happen, and even then 
the ideas are, at best, half-baked. Well, we will get an agency 
to sponsor you. We will go to the chief's department and say: 
Can we get you to sponsor us?
    Mr. Katko. It sounds like there is a fundamental fix that 
we can do legislatively. So what I am going to do is I am going 
to have my staff contact you folks and get your input, and then 
let's work collaboratively to try and fix this.
    Mr. Sena. That sounds great, sir.
    Mr. Katko. OK.
    Mr. Sena. We would really appreciate that.
    Mr. Katko. All right.
    Well, thank you all, gentlemen. My heart bleeds for 
Orlando, and anywhere in this country of ours where things like 
this are happening. But the cold, hard reality is in all 50 
States in this great country, we have ISIS investigations, and 
we have big investigations. We have task forces that are 
getting stretched to the hilt.
    To think that in this time of great stress that we can't 
even share the information with people who have the security 
clearances is maddening. So we have got to do our job, and we 
will.
    So thank you all very much. I appreciate it.
    Mr. Sena. Thank you, sir.
    Mr. King. Mr. Katko yields back.
    Mr. Keating, the gentleman from Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman.
    Thank you for being here. This is a critical dialog that we 
are having. As a former DA myself, I worked a lot with the 
chiefs. In fact, I worked with your successor, Chief Beary, I 
think Terry Cunningham in Massachusetts. Those dialogs at that 
level were important. In fact, we met regularly.
    So I would just say to all of you, at least individually 
and I think for the committee, if you have information that you 
think could be helpful to us, suggestions, not just after this 
hearing but on an on-going basis, feel free to call my office 
and share that information. It is important information.
    Then we will try and unravel so many roadblocks. I mean, 
how can the Federal agencies, for instance, share information, 
or the FBI share information that they don't have sometimes? 
After Orlando, Senator Nelson on the Senate side and myself on 
the House side, we put in legislation so that the FBI, when 
they are investigating terrorists, and then they have to close 
the case because of the structure that is there, if that person 
later tries to purchase a weapon, at least they should be 
notified at the Federal level.
    I would like you to comment on that legislation. Because if 
they don't have the information themselves, how can they share 
it?
    Chief Beary. Thank you, Congressman.
    You bring up one of the fallacies of the system. When it 
comes to firearms purchases, that is another whole--as I talked 
about, some of the challenges that are there. I can't get my 
head around, as a police chief, that you can be on the 
terrorist watch list and legally purchase a weapon. I mean, if 
we can't fix that, I am not sure where we are going with the 
rest of it.
    But again, I am not sure what the fix is of that, but I 
would certainly hope that there has got to be some kind of 
communication on the Federal level, and then through our joint 
terrorism task forces it would get down to us on the local 
level. I certainly hope that happens.
    But again, if we can't fix the watch list, I think that one 
is glaring and we should jump on that first, and then we will 
go from there.
    Mr. Keating. This doesn't even stop the purchase of the 
gun. It just gives the authorities the information that is 
being done, information that if they had that information as 
they are doing an investigation, could have made a great 
difference.
    Chief Beary. Correct. I think would have made an incredible 
difference. Based on those people that I know at the FBI that 
we work with on a daily basis and those personnel that we have 
assigned to the joint terrorism task forces, I think it would 
have made an incredible difference. I believe that.
    Mr. Keating. I also think from the bottom up having access. 
I just want to follow up regarding the clearance issue, too. I 
mean, what is the expense on the local departments? How are you 
getting some of the money for that as well as just the 
roadblocks that are there administratively? Is that an issue 
too? Do you need more resources to do that?
    Mr. Sena. As far as the clearances themselves, the process 
goes through, for us, mainly, FBI and Department of Homeland 
Security. So they take care of the processing piece. It is just 
it takes so long right now for those clearances often to come 
through. You will have some that will take 90 days. You will 
have some that will take a year. No real rhyme or reason. But I 
always feel like it is a lack of resources and the ability to 
do these clearances that need to get done.
    Mr. Keating. Beyond the local and county law enforcement 
people getting clearance, do you want to comment too? We have 
had testimony before on the data analysts at the fusion centers 
having clearance. How important is that? Because if they are 
working with that data all the time, they don't have clearance.
    Mr. Sena. Absolutely, that is critical. If they don't have 
the clearance, we can't tell them the context that what they 
are working on could potentially have. It is very painful.
    The other piece of that is we have struggled over the 
years, we have worked tremendously with the FBI Office of 
Partner Engagement, Kerry Sleeper's team, to try to figure out, 
how do we get the analysts the data from FBINet? A lot of the 
holdings that are about terrorism are in that system.
    So we can get a task officer, so it is a sworn law 
enforcement officer, we can get him FBINet access, but we have 
yet to figure out how can we get the analysts who need the data 
more often than the officers, to give them the information to 
do their job in the field. It has really been heartbreaking for 
us to struggle so long.
    We had an initiative, the National mission cell initiative, 
which has actually turned into the enhanced engagement 
initiative, which the primary goal of that was to figure out 
how do we get access to the analysts of those systems and how 
we get them the training. To date, over a year, we haven't 
gotten to that point yet.
    Mr. Keating. It is not a new issue.
    The other thing I want to just highlight as an issue and 
get your comments, I hope, is the fact that the effectiveness 
of the CVE, for lack of a better term, that training, how 
helpful that is. But also, I know we are trying to do this in 
my home State and around the country, but just to get a sense 
in terms of reaching out to communities, reaching out to the 
Muslim community, reaching out and making them more empowered 
to be a partner in sharing information, that is critical at the 
root level. There has to be a trust that is built. But that 
trust is important. Also the access is going to mostly come 
from local law enforcement building those bridges.
    Can you tell us of some of the progress, some of 
roadblocks, how you are doing across the country? Because 
without that, we are shutting off an important source of 
information and a dialog that has to be continued.
    Mr. Sena. Absolutely. If my colleagues don't mind me taking 
that first.
    Chief Beary. No, go on.
    Chief Alexander. No, go right ahead.
    Mr. Sena. The CVE, it starts for us with Building 
Communities of Trust, which was a DHS and Department of 
Justice, Bureau of Justice-assisted program, where we actually 
went out to the communities and start trying to build those 
relationships. I have to tell you, the first meeting we had was 
probably about the roughest experience I have had in my life. 
Folks with no trust for law enforcement. Trust was not even 
talked about. It was: We don't trust you from the start, from 
the beginning of this meeting.
    That has kind of flourished to the point where today, this 
afternoon actually, we are doing a seminar with groups that 
probably have never been given a voice in our public safety 
community, from the Council on American-Islamic Relations to 
the Islamic Networks Group to the Muslim public advocacy 
committee. These groups are now going to do a presentation to 
law enforcement on what they see CVE, what they see 
Islamophobia, and what they see as ISIS from their perspective.
    We do a lot of things in government from the top end. That 
doesn't work. We have to engage the community and hear their 
voice and what their concerns are. One of the things that they 
had a concern about is hate crimes. So we added onto our 
website portal and our ability on a mobile application that 
they could click on ``hate crimes,'' so they can take that 
application out and give it to their community so they can 
report things. We tell them first make sure you call your local 
law enforcement, but we are good with secondary reporting or if 
you have a fear of reporting, just click on that application to 
tell us.
    Right next to that is our suspicious activity reporting. So 
that way if someone in their community sees something that fits 
the characteristics of a suspicious behavior, they can report 
that too. It is a huge leap for us, enormous. But it has been 
slow. It has taken us several years to do this.
    But here is the problem we hear across the country. The 
communities that we are trying to talk to about CVE don't want 
to talk to us about CVE. They want to talk about the crimes 
they see. They want to talk about the hate crimes. They want to 
talk about the issues they have in their community. They want 
to talk about law enforcement and violence in their community.
    Those are their issues, and we need to address those in 
order to get that conversation going about how to identify 
violence in their communities.
    Mr. Keating. That is a great point.
    Doctor.
    Chief Alexander. Yes, sir, it becomes hugely important, 
with all the negative anti-Muslim rhetoric that we have heard 
over recent years, to engage our Muslim community. In DeKalb 
County, we have well over 700,000 residents, and we have an 
extremely large Muslim community in and around DeKalb County.
    So what we did, and what is critically important in 
bridging these relationships, even though oftentimes we think 
of doing them after something happens, what is really 
important, that people feel a sense that you are really genuine 
in what you are asking in terms of building that relationship.
    So for us, right after San Bernardino, it came to mind for 
me to bring in the Muslim community in DeKalb County, to sit 
down and talk with their leadership. I ended up, through one 
imam, ended up having about a dozen imams throughout the whole 
Atlanta metro community that showed up, along with my staff and 
a number of other chiefs that are in my county as well too, 
where we have a number of small cities in our county.
    So it provided an opportunity to them to talk about their 
fears and the threats they had been receiving, their children 
had been receiving post-San Bernardino event. So it gave us an 
opportunity to share with them our commitment to their safety 
as we would any other American citizen, and they also committed 
to us that if they hear something or see something, that they 
would call us.
    True to form, not long after that meeting, they began to 
share information with us that we gave to the FBI for their 
follow-up, and I think that is what we are trying to do here. 
But it has to be done in a very genuine way, and it has to be 
done in a way that people don't feel where you are just 
reaching out to me being nice because this occurred and you 
want to know if something happening in your back yard.
    Mr. Keating. I think that, last, I am over my time, but it 
is my own experience, what you are saying is so important. We 
did, in our county, when I was DA, we did civil rights training 
for law enforcement, but we did it regularly. We didn't do it 
just after a crisis.
    I want to say this, because it is my experience as well, I 
come from a police family. The willingness of local police to 
participate and be part of this was just so strong, and I think 
it should be said publicly, given all that is occurring and the 
rhetoric around the country, this is something that if it is 
there and they can participate, police want to do this. It is 
for their own safety, but they are committed to the safety of 
their community.
    So I just couldn't agree with you more that let's just not 
do these things in the wake of a tragedy, let's do it on an on-
going basis. I think you have the willingness of the public and 
these community groups as well as the police to make it 
successful.
    Thank you for what you are doing. Thank you.
    Mr. Hurd [presiding]. I would like to thank my friend and 
the distinguished gentleman from Massachusetts for his 
questions and his years of commitment to this issue.
    I am now going to recognize myself for 5 minutes.
    Gentlemen, good to see you all again. I think last time we 
were here, we were talking about overclassification. It seems 
that this issue has not been resolved. This is something that 
has to be resolved to make sure we get the right information in 
the right hands.
    I think what your brothers and sisters in arms have to deal 
with, whether it is an active shooter--we are dealing with one 
possibly right now in Alpine, Texas, a small town in west Texas 
that I represent--is difficult. I want to make sure that your 
brothers and sisters in arms have all the information that they 
need.
    Earlier, in some of you all's testimony, you were talking 
about a lack of cyber preparedness, and I think everybody hit 
on that. I am curious, can we dig a little deeper in what 
should happen, what kind of information are you all looking 
for, and where do you think that can come from?
    Let's start with you, Chief Beary.
    Chief Beary. Thank you, sir.
    What I found is good leadership delegates, and I would 
delegate that to Mr. Sena. I think he is in a unique position 
from the fusion center network to talk about a more global 
aspect.
    Mr. Hurd. Mr. Sena.
    Mr. Sena. Thank you, Congressman Hurd.
    When we started looking at the issues of cyber we drew back 
on kind-of what we looked at in our approach to suspicious 
activity reporting and how we create a unified message, that if 
you see something suspicious, say something, call someone, call 
local law enforcement, local law enforcement will pass that 
information to the FBI and JTTF and to their fusion centers.
    When we look at the world of, ``Who do you report a cyber 
threat to?'', the closest thing we get has 5 different people 
on it that you need to contact. That makes it a little 
difficult, although there is a lot more cross-communication 
between those 5 different areas that you could potentially 
call, depending on what type of event it is, but we still need 
to have more of a unified process around the country of how an 
attack, how an incident is reported.
    Mr. Hurd. Honestly, we have tried to address that issue 
with the Cybersecurity Act of 2015, making the Department of 
Homeland Security the bellybutton for this level of 
cooperation. If you have the fortunate opportunity to be at a 
fusion center you could be able to still go to the Bureau and 
sometimes Secret Service, depending on the information, and we 
don't want to prevent the existing lines of cooperation that 
may already be happening, but where there is none, Department 
of Homeland Security is supposed to be the bellybutton.
    We are also working, when it comes to the reorganization of 
the entity within the Department of Homeland Security that 
deals with cybersecurity, making it an operational unit. It 
already is, let's be frank, but we have to make sure that they 
have the proper structure to do that and to ensure that there 
are individuals there that are working with State and local 
folks on this level of cooperation.
    But we can't just talk about sharing between the Federal 
Government and local law enforcement, we need to be talking 
about private sector as well, because they are the ones that 
are seeing a bulk of these attacks. We can be learning from 
them, and these are potential analysts that local law 
enforcement and State entities could be using.
    So has there been talk of the integration of private-sector 
entities within some of these fusion centers when it comes to 
cyber information sharing?
    Mr. Sena. Actually there has been. We have centers where 
there are folks in the private sector that have come in with 
this type of expertise. Virtual collaboration, we have a Cyber 
Intelligence Network that we have created, analysts from around 
the country that can get on-line, use a HSIN Cyber Intelligence 
Network tool that we have, and that way they can exchange 
information in real time of what threats they are seeing.
    Because you are absolutely right, the people that are more 
able to see the threat are oftentimes the private sector. By 
the time that a law enforcement agency sees the threat, their 
computer is already locked up and everything has become a 
brick. At that point, it is too late.
    But what we want to be able to do is, when somebody sees a 
threat, share that information with others, but also the 
hygiene part is incredibly important. The fact that someone 
within an organization, and it just takes the weakest link, 
clicks on whatever spear phishing that may be out there, 
somebody send you an email going, ``Hey, I am your long lost 
brother, I am going to send you some money,'' or whatever it 
may be, clicks on that link and infects the entire computer.
    We recently had that where it took out an entire agency, 
and not a large agency, it took out their dispatch services. 
That is happening across America.
    Mr. Hurd. One of the things that is important for me 
specifically is, when you all have specific examples where the 
information sharing works and when it is a problem, 
understanding those specific examples. Because if we can solve 
that problem for that individual instance, then we can figure 
out how to solve it in the future. But in this case, we need to 
have granular understanding. I am deep in the weeds on this 
issue. So you all's feedback, positive and negative, going 
forward would be helpful.
    There are two issues I want to address in the time I do not 
have, and one is this issue about suspicious activity and 
suspicious behavior. If we use the example of the Orlando 
shooter--Orlando killer, excuse me--he cased a number of 
locations that had private security there.
    Are private-security folks, are they trained to detect 
suspicious activity? Are they filling out suspicious activity 
reports? If a private-sector security service has a suspicious 
activity, where does it go? Does local law enforcement see 
that? Because the reality is, I think, when dealing with these 
lone-wolf attacks of folks that have never been on the radar 
before, the way that we are going to figure it out is disrupt 
them when they are doing the casing operations. Guess who is 
going to disrupt it? The two of you all, the folks that you all 
represent.
    So is that process on-going? How does that get integrated 
into the fusion center? Because I would describe these as micro 
intelligence networks, that we are gathering this information 
on the ground, and then how do we connect it to some of the 
National intelligence?
    Maybe, Dr. Alexander, have you go first, and then Chief 
Beary, and then, Mr. Sena, you wrap it up.
    Chief Alexander. I think that is a great question, 
Congressman. Maybe Chief Beary has a different perspective on 
it. My perspective is, in a lot of these establishments, such 
as the Pulse nightclub for an example, we have thousands of 
those across this country, hundreds of them in some communities 
across this country as well, and they all have security at the 
front door, if you will. So if you were to ask are they trained 
to detect certain behaviors and so forth, no, they probably are 
not.
    So even where you have police officers who may be working 
off-duty jobs at some of these establishments, they have a 
little bit better insight because of the training that they 
have, but if they are not careful and become very lax in that 
very social kind of environment, they themselves can find 
themselves very much at risk.
    But to your question, I think it is something to really 
think about on a National perspective, is how do we train such 
establishments, if you will, how do we help them train or how 
do we train, whether we do it locally through JTTF or some law 
enforcement agency, to train security personnel that may be at 
nightclubs. If you are going to do it for nightclubs, now you 
have to do it for restaurants, you have to do it for theaters, 
you have to do it for----
    Mr. Hurd. Malls, grocery stores.
    Chief Alexander. Yes, you have to do it everywhere. So it 
has to be a training that is across the board that heightens 
everyone's awareness to the environment that we live in today 
that we all need to be very thoughtful, very mindful, and very 
watchful of our environment, but do it in a way where we don't 
hamper the democracy of people who like to move through a free 
society such as we do, but do it in training in a way in which 
we all are very thoughtful, because this is a new way of doing 
business in this country when it comes to that.
    The other piece I want to back up, if you would allow me, 
sir, for a moment, you were talking about the investment of our 
corporations or private industry being involved in this whole 
security piece. The private sector has a huge investment in 
making sure that our Nation's security remains safe. They are 
the infrastructure of this Nation. Oftentimes, when we have had 
to call on them in the State of Georgia, for an example, the 
Southern Company, Georgia Power, we call on them for support or 
for information or provide us with support so that we don't 
have access to, they have been very willing to do so.
    So the point is, I think, if we ask more of our private 
industry partners in our communities to take part in this whole 
enforcement piece, watchful eye of things that are going on, 
and being able to work with us through our intelligence 
gathering, and sharing what is intelligence that would be 
relevant for them as civilians, I think is going to strengthen 
this country as a whole. So I certainly do support that 
wholeheartedly.
    Mr. Hurd. Thank you, sir.
    Chief.
    Chief Beary. Thanks, Congressman.
    In particular with the Pulse killer, it is still an active 
investigation, so I need to kind of dance around some of what I 
am going to say. But it is very clear from what I know that 
this individual had cased other locations, and it was because 
of a change in a security footprint in those locations that 
that individual probably moved to another target. So changing 
your security stance occasionally is a good thing. Of course, 
at the university setting, we do that regularly with football 
and large-scale events. So we know that works.
    In Orlando, we have ILOs, intelligence liaison officers, 
and those ILOs are not just law enforcement officers, they are 
people that work for those private corporations that are 
vetted, and they feed that information into our Central Florida 
Intelligence Exchange. So we do have that network. We have had 
it in place for many years. It is not just private sector. It 
is on the fire side. We have expanded that out.
    Is there incredibly renewed interest? Absolutely. Then we 
get into that whole challenge, which we have talked about 
before, it is funding for our intel centers, our fusion 
centers, and then those clearances that those people need.
    So there are systems in place, and they do work, and we 
know they work. But again, I agree with Dr. Alexander, we 
probably need to come up with some kind of standard training 
that is vetted so it is proper and that we don't violate 
people's Constitutional rights, and share that with more 
private-sector companies that are looking at enhancing their 
security operations.
    Mr. Hurd. Thank you, Chief.
    Mr. Sena, in your response, I am going to add another 
question to you. If an outside entity is willing to pay for the 
security investigation to get clearances, shouldn't that speed 
the process? What is the barrier that is preventing that from 
happening?
    Mr. Sena. To start it off on the security question, there 
is right now no real mechanism to allow the FBI or DHS to 
accept money from a private entity, and that is probably one of 
the bigger problems that they have. If they were going to pay 
for play and I get a quicker investigation if I pay, there is 
nothing like that that exists right now, and I don't even know 
if it would ever be possible to do that.
    Mr. Hurd. Well, there is a program called the 559 program 
on the border. It is really hard, I have learned in my 20 
months in Congress, it is really hard to give something for 
free to the Federal Government, and there have been examples 
where we do that on infrastructure along the border, and I 
think there is a model for that public-private partnership.
    Who is the entity, who is the person that makes that 
decision?
    Mr. Sena. Well, that would be FBI and DHS security that 
would make that decision.
    Mr. Hurd. Gotcha.
    Any final thoughts?
    Mr. Sena. I did want to add to that question on the liaison 
officer piece and how you engage the critical infrastructure, 
and it is that piece. The ILOs, give them that direction.
    The one thing that we have gotten a lot of good press on, I 
should say, and it is unfortunate that the way we get it is 
every time there is an attack, they put it on the news, they 
say, hey, this is how you submit a SAR. If you are critical 
infrastructure folks, this is how you push the button, and you 
can put the information in or call right away.
    But that is the key. There has got to be some place, some 
easy mechanism for those people in private security forces to 
pass that information to us. They do daily. We have about 1,000 
people.
    But the other part of that is we need to be able to push 
data to them as well. So there has to be the ability from the 
Federal Government, from fusion centers, to send that. We are 
doing that to 1,000 people that are really the directors of and 
managers of the private security forces.
    Mr. Hurd. Well, gentlemen, I could sit here for another 15 
or 30 minutes and continue this conversation. I just want to 
end with thank you all for what you do. Please thank your 
Members and the people that you represent. You have an 
incredibly difficult job, and thanks for keeping us safe. 
Again, I appreciate your valuable testimony and the Members for 
their questions.
    Members of the subcommittee may have some additional 
questions for the witnesses, and we will ask for you to respond 
to these in writing. Pursuant to Committee Rule VII(E), the 
hearing record will be held open for 10 days.
    Without objection, the subcommittee stands adjourned. Thank 
you.
    [Whereupon, at 11:26 a.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
